<html>
<title> - TRANSPORTATION AND HOUSING AND URBAN DEVELOPMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2008</title>
<body><pre>[Senate Hearing 110-]
[From the U.S. Government Publishing Office]



 
TRANSPORTATION AND HOUSING AND URBAN DEVELOPMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2008

                              ----------                              


                       THURSDAY, FEBRUARY 8, 2007

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:30 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Patty Murray (chairman) presiding.
    Present: Senators Murray, Lautenberg, Bond, Bennett, 
Brownback, Stevens, Alexander, and Allard.

                      DEPARTMENT OF TRANSPORTATION

                        Office of the Secretary

STATEMENT OF HON. MARY E. PETERS, SECRETARY
ACCOMPANIED BY PHYLLIS F. SCHEINBERG, ASSISTANT SECRETARY FOR BUDGET 
            AND PROGRAMS


               OPENING STATEMENT OF SENATOR PATTY MURRAY


    Senator Murray. The hearing will come to order.
    Today the Subcommittee on Transportation and Housing and 
Urban Development, and Related Agencies, is holding its first 
hearing of the year, and before we begin I do want to welcome 
four new members to the subcommittee: Senator Alexander, 
Senator Feinstein, Senator Johnson, and Senator Lautenberg. And 
I also want to give a warm welcome to our principal witness 
today, Transportation Secretary Mary Peters.
    Today's hearing comes at a very important time. While the 
official purpose of this hearing is to review the President's 
transportation budget for 2008, the reality is that Congress 
has not yet enacted a transportation budget for 2007.
    Currently pending in the Senate today is H.J. Res. 20, the 
joint funding resolution. That bill was developed by both the 
House and the Senate Appropriations Committees on a bipartisan 
basis. Its goal is to finalize the funding levels for the 
Department of Transportation and most other departments for the 
remainder of this year. It was made necessary by the fact that 
the last Congress never completed the appropriations process 
before adjourning.
    The joint funding resolution for the most part freezes 
programs across the Government at their 2006 funding level. 
Importantly, however, the bill also makes necessary funding 
adjustments to deal with critical programs that cannot and 
should not endure a funding freeze.
    In the case of the Transportation Department, we were not 
prepared to ignore our responsibility to ensure safety in our 
skies, on our highways, and on our railroads. The bill provides 
funding increases totaling more than a quarter billion dollars 
to ensure that there are adequate numbers of personnel to 
control air traffic, as well as inspect and enforce safety 
rules governing commercial airliners, trucks, railroads, and 
pipelines. Without this additional funding, the FAA 
administrator told us that she would be required to put every 
air traffic controller and every aviation inspector on the 
street for 2 weeks without pay between now and the end of 
September.
    The joint funding resolution currently before the Senate 
boosts funding for Amtrak to $1.3 billion. Under the continuing 
resolution, Amtrak's funding would remain $200 million lower 
than it was last year. That would endanger passenger rail 
service across the country, as well as the annual maintenance 
expenses that must be made to ensure safe operations in the 
Northeast Corridor.
    Finally, the bill pending before the Senate provides an 
additional $3.75 billion in additional formula funding for our 
Nation's highway and transit systems. That funding will serve 
to create almost 160,000 new jobs, while alleviating 
congestion. It will be an important infusion of cash to the 
States to help them address their most pressing bridge 
replacements, highway widenings, and safety enhancements. When 
you look at all the highway needs across my State of 
Washington, the additional $71 million the State will receive 
is urgently needed and will be put to work right away.
    The Department of Transportation, like most of the rest of 
the Government, is now operating under the terms of a 
continuing resolution that makes none of the funding 
adjustments I just talked about. It simple freezes all programs 
or cuts them to reflect the cuts that were passed in the House 
of Representatives during the last Congress. That CR will 
expire a week from today, February 15.
    Now, some of our Senate colleagues have suggested we should 
not adopt this new joint funding resolution, and have advocated 
that we extend the existing CR through the remainder of the 
year. They are saying that we should forego these desperately 
needed funds for highways and transit, that we should allow the 
FAA to furlough all its safety personnel for 2 weeks, and that 
we should allow our aviation, truck, railroad, and pipeline 
inspection work force to dwindle.
    As part of this hearing, we will learn Secretary Peters' 
views on that question. And very soon, Senators will have their 
first opportunity to vote on this question one way or another. 
Are we going to debate and pass the new joint funding 
resolution, or will we ignore our responsibility to 
transportation safety and investment for an entire fiscal year.
    Now for 2008 the President has sent us a transportation 
budget totaling just under $67 billion. That represents an 
increase of $4.6 billion above the 2007 level that we hope to 
achieve by enacting the joint funding resolution. This 7.3 
percent increase is a substantial boost, given the tight 
funding we find across the rest of the President's budget.
    My biggest concern with this budget proposal is not what it 
does do but what it doesn't do. It seeks substantial new 
resources for one critical need, alleviating highway 
congestion, while providing little growth and even less 
emphasis on an equally critical need, reducing highway 
fatalities.
    As a resident of the Puget Sound region, I can attest to 
the critical national need to address congestion. Congestion is 
keeping parents from their children and workers from their 
jobs. My State serves as a critical cargo gateway from Asia. 
Our future prosperity requires that we can get cargo out of our 
ports, onto highways and railways that are moving, not clogged 
with congestion.
    The administration's budget proposes $175 million for a 
series of new programs designed to relieve congestion. We are 
told that this investment is part of a new comprehensive, 
department-wide national strategy to reduce congestion. The 
Secretary is serious about this initiative, and I am willing to 
give it a very careful look.
    But I also have to ask, where is the new comprehensive, 
department-wide national strategy to reduce highway deaths? 
Back in early 2003, when she was serving as our Federal Highway 
Administrator, Secretary Mary Peters noted that there were 
41,000 highway-related fatalities annually and said we were 
facing a national safety crisis. She was right.
    Tragically, however, the only thing that has happened since 
then is that the number of highway fatalities have increased, 
and it's not just the number of deaths that have increased. The 
fatality rate has increased as well, and the numbers are all 
going in the wrong direction. The 41,000 fatalities that 
alarmed the Secretary back in 2003 have now grown to more than 
43,400. That is the highest number recorded in 15 years.
    The Bush administration established a performance goal for 
the Department of Transportation to reduce highway fatalities 
to 1 fatality per 100 million vehicle miles traveled by 2008. 
Unfortunately, for 2005, the most recent year for which we have 
data, the rate was 45 percent higher than that, 1.45 
fatalities.
    The administration's budget documents indicate that the 
Department, instead of redoubling itself to achieving its goal, 
is now pushing off this goal until 2011. The Bush 
administration is lowering the bar when it comes to saving 
lives, and I personally find that disappointing. The growing 
carnage on our highways cries out for national attention and 
national leadership, and instead we see resignation and 
retreat.
    The Department of Transportation has many different 
responsibilities. One of the jobs of this subcommittee is to 
make sure that the policy direction and funding we provide is 
balanced between all the transportation modes and all the 
challenges the department faces. I do commend the department 
for trying to seriously reduce congestion on a department-wide 
basis and asking for some innovative funding to back that up. 
But the department I hope also will bring an equally serious 
focus to reducing highway deaths. With the statistics moving in 
the wrong direction, one thing that is clear is that the 
current strategies are not working.
    In the next few weeks our subcommittee will have a special 
hearing on just this topic with the National Highway Traffic 
Safety Administration, the NTSB and other officials to address 
the problem, and I encourage all of our subcommittee members to 
attend that.
    With that, I would like to recognize my partner and ranking 
member, Senator Bond, for any opening remarks he would like to 
make.


            OPENING STATEMENT OF SENATOR CHRISTOPHER S. BOND


    Senator Bond. Thank you very much, Madam Chair, and I 
congratulate you and wish you well on assuming the chair of 
Transportation, HUD, and Related Agencies. I congratulate you 
on your new responsibilities, and based on our good working 
relationship in THUD over the last 2 years, I know we will have 
a good relationship in balancing the many needs and the 
important issues that are within what is left of our 
jurisdiction.
    And it is with sadness that as I turn the gavel over to 
you, half the gavel is gone, with all the things that have been 
taken away from our jurisdiction. Now, it's no secret that I 
would have preferred to have remained chair, but I have the 
utmost respect for my partner from Washington's abilities and 
sensitivities to the many issues and points of controversy that 
are parts of our responsibility. We share many of the same 
concerns and objectives with regard to the programs and 
activities within the THUD subcommittee.
    Again, we appreciate the close working relationship that we 
have had and our staffs have had in crafting the THUD portion 
of this ominous--excuse me, I used to call it ``ominous''--
omnibus appropriations bill called a CR. I'm glad we have an 
omnibus and not a CR, because a CR would have left us terribly 
underfunded, although I do share the concerns of many, my 
partner to the left, on the fact that Milcon was not funded, 
which the overall committee is going to have to address very, 
very shortly.
    And now to turn to the new Secretary, Madam Secretary, 
congratulations to you. We are absolutely delighted to see you 
back. Now that it's snowing in Phoenix, it may not be so bad to 
come back to Washington. We've worked very closely over the 
last couple of years, during the passage of SAFETEA-LU, when 
you were Administrator of FHWA, and I know that we will 
continue to have a good working relationship.
    As the chair has noted, the 2008 budget for DOT proposes 
$67 billion in gross budgetary resources. Similar to last year, 
however, the administration chose to underfund popular programs 
such as the Airport Improvement Program, Amtrak, and new 
starts. Nevertheless, Congress is not likely to provide lower 
levels of funding in 2008 than what was done under H.J. Res. 20 
covering the remainder of 2007.
    I am pleased that the administration remains committed to 
meeting the guaranteed funding levels for highways as 
authorized under SAFETEA-LU. These funds will allow an 
increased investment in key highway and transportation projects 
which will complement and assist the continuing growth of the 
economy.
    However, the administration chose to cancel the revenue-
aligned budget authority put in place, I might add, as part of 
the Bond-Chafee amendment to a previous highway bill. I'm 
concerned over the loss of funding, since SAFETEA-LU calls for 
an upward adjustment if receipts into the Highway Trust Fund 
exceed what we had anticipated. This results in a $631 million 
loss for 2008, and as one of the original co-authors, I need to 
listen to the people in Missouri and other States to see where 
we should go in addressing our additional highway needs 
nationwide.
    The administration also proposes a rescission of the 
unobligated balance of contract authority for demonstration 
projects authorized under ISTEA in 1991. These funds will 
provide for a $175 million pilot to address congestion, which 
is, no doubt about it, a major problem for our economy and 
families across the Nation, and we see it here in Washington as 
it impacts both this city and rural and urban areas across the 
country.
    Different approaches are needed for all our modes of 
transportation, and I will carefully review the 
administration's proposals to see whether these new ideas will 
actually provide us with ideas for the future or whether we're 
just continuing down the same path where we get little bang for 
lots of bucks. I continue to believe that while congestion on 
our rail and port systems are important areas to address, 
Highway Trust Fund dollars should be used only to address 
congestion on our Nation's crumbling road structure and not on 
other modes of transportation.
    Now, Madam Chair, I'm unclear on the proposed $900 million 
for Amtrak. Amtrak will directly receive $800 million for 
capital spending grants, efficiency incentive grants, and $100 
million dedicated to issue capital matching grants to States 
for intercity passenger rail. While I remain critical about the 
expenditure, the manner of expenditure of Federal funds for 
Amtrak, I question whether this funding level will meet 
anticipated expenses for 2008, considering H.J. Res. 20 
includes $1.29 billion for Amtrak.
    I continue to look for the administration to outline a 
precise vision for Amtrak and maintain pressure for the 
organization to meet its overall objectives and goals Congress 
has set. If detailed transportation improvement plans were 
provided by Amtrak, we would be better able to understand what 
the needs are and whether or not providing additional funds for 
passenger rail service is effective and efficient.
    Another area I look forward to working with the department 
on FAA reauthorization. I know the administration is looking at 
a hybrid funding proposal involving user fees, increased fuel 
taxes, and general revenue. The details I guess we'll get next 
week. While it's too soon to pass judgment on the 
reauthorization without seeing the total picture, it's my hope 
the proposal will be fair and equitable to all parties involved 
in the aviation system: both commercial and general aviation.
    I think it's critically important we get it right when 
dealing with how to fund the next generation of our air system. 
It's obvious FAA faces major challenges adapting to future 
changes such as the expanded use of very light jets and the 
anticipated increase in overall air traffic. Couple this with 
the complex challenge of managing a modernization program as 
large as the Next Generation Air Traffic System, and it's clear 
that the department and FAA will have their hands full. I know 
that Senator Murray will conduct further hearings on the FAA, 
and we look forward to working with you, Madam Secretary, and 
Administrator Blakey.
    Another area of particular concern to me is the proper way 
to adjust the corporate average fuel economy or CAFE standards 
for passenger cars and light trucks. I was pleased to hear in 
the President's State of the Union that the administration 
proposes to reform and increase CAFE standards for passenger 
cars, using sound science and detailed cost-benefit analysis, 
and without impacting the safety of the motor vehicle fleet. In 
addition to the proposal for cars, the President supported the 
continued increase in fuel standards for light trucks and SUVs 
under an extension of the current light truck rule.
    Nevertheless, we need to ensure that we make appropriate 
CAFE reforms that will not discriminate against domestic 
automakers in favor of foreign automakers, and that is a 
concern. It's important for Members of Congress and the 
traveling public to realize that CAFE is very complex and 
requires scientific analysis. In recent studies, several 
leading engineering and highway safety organizations, including 
the National Academy of Sciences and the National Highway 
Traffic Safety Administration or NHTSA, have warned that any 
significant increase in CAFE standards could have adverse 
impacts both on safety for the traveling public and the 
economic health of an already struggling U.S. automotive 
industry.
    As one of the leaders in pushing for NHTSA to determine 
what technology is available to ensure increased fuel mileage 
without raising safety concerns, I think I should note that 
NHTSA was the one, after the first major increases in CAFE, 
that estimated that roughly 2,000 additional lives were lost on 
the highway when the original CAFE proposals led to a 
significant decrease in weight in cars without having the 
technology to achieve the greater mileage. The lighter cars did 
increase highway fatalities, a significant number of them, even 
in one-car crashes.


                           PREPARED STATEMENT


    But, in closing, I do have concerns about the 
administration's budget and funding proposals as proposed for 
this committee, especially the funding proposed for housing 
programs that are the safety net for many low-income families, 
including seniors and persons with disabilities, as well as 
many of the other funding proposals that are contained in the 
jurisdiction of other subcommittees. How we meet these demands 
will be a challenge for the Appropriations Committee and the 
Congress.
    Madam Chair, I thank you.
    [The statement follows:]

           Prepared Statement of Senator Christopher S. Bond

    Good morning Madam Secretary. I'm glad to see you back with the 
Department. We worked closely over the last couple of years during the 
passage of SAFETEA when you were the Administrator of the FHWA and I 
look forward to continuing our working relationship as well as hearing 
your comments today on the overall budget for all modes of 
transportation within the Department.
    I also look forward to continue working with Senator Patty Murray 
as the new chair of the Transportation, HUD and Related Agencies 
Appropriations Subcommittee. I congratulate you on your new 
responsibilities and, based on working together on THUD over the last 2 
years, I think we will continue to have a good relationship in 
balancing the many needs and important issues that are within our 
jurisdiction. While I would have preferred to remain chairman, I have 
the utmost respect for Senator Murray's abilities and sensitivities to 
the many issues and points of controversy that are part of our 
responsibilities. I know that we share similar concerns and objectives 
with regard to many of the programs and activities that are within the 
THUD appropriations subcommittee.
    The fiscal year 2008 budget for DOT proposes $67 billion in gross 
budgetary resources. Similar to last year, the administration chose to 
under fund popular programs, such as the Airport Improvement Program, 
Amtrak and the New Starts. Nevertheless, the Congress is not likely to 
provide lower levels of funding in fiscal year 2008 than what is done 
under H.J. Res. 20, covering the remainder of fiscal year 2007.
    I am pleased the administration remains committed to meeting the 
guaranteed funding levels for highways as authorized under SAFETEA. 
These funds allow an increased investment in key highway and 
transportation projects, which will complement and assist the 
continuing growth of the U.S. economy. However, the administration 
chose to cancel RABA, ``revenue aligned budget authority''. I am 
concerned over the loss of funding since SAFETEA calls for an upward 
adjustment if receipts into the Highway Trust Fund exceed what we had 
anticipated when we were drafting the bill. This results in $631 
million for fiscal year 2008. As one of the original authors of this 
concept, I will need to talk to people in Missouri and other States and 
see where we should go from here in addressing our additional highway 
needs nationwide.
    The administration also proposes a rescission of unobligated 
balances of contract authority for demonstration projects authorized 
under ISTEA in 1991. These funds are to be provided for a $175 million 
pilot to address congestion. As everyone knows, congestion is a major 
problem for both our economy and families across the Nation. Congestion 
impacts both rural and urban areas. Different approaches to addressing 
the issue are needed for all of our modes of transportation. I need to 
review carefully the administration's proposal to see whether we are 
spending these crucial dollars on pilots that will actually provide us 
with ideas for the future, or whether we are just continuing down the 
same path where we get little bang for the biggest bucks. I continue to 
believe that while congestion on our rail and port systems are 
important areas to address, highway trust fund dollars should be only 
used to address congestion on our Nation's crumbling road structure, 
and not on other modes of transportation.
    I am still unclear on the proposed $900 million for Amtrak. Amtrak 
will directly receive $800 million for Capital Spending Grants and 
Efficiency Incentive Grants and $100 million dedicated to issue capital 
matching grants to States for intercity passenger rail projects. While 
I remain critical of Federal funds for Amtrak, I question whether this 
funding level will meet anticipated expenses for fiscal year 2008 
considering H.J. Res. 20 includes $1.29 billion for Amtrak. I continue 
to expect the administration to outline a precise vision for Amtrak and 
maintain pressure for the organization to meet its overall objectives 
and goals Congress has set. If detailed transportation improvement 
plans were provided by Amtrak, we would be better able to understand 
what the needs are, and whether or not providing additional funding for 
passenger rail service is both effective and efficient.
    I look forward to working with the Department on the 
reauthorization of the FAA. I am aware that the administration is 
looking at a hybrid funding proposal involving user fees, increased 
fuel taxes and general revenue. I understand the exact details of the 
long awaited reauthorization proposal will be unveiled next week. While 
it is too soon to pass judgment on the reauthorization without seeing 
the full picture, it is my hope that the proposal will be fair and 
equitable to all parties involved in the aviation system: both 
commercial and general aviation.
    I think it is critically important that we get it right when 
dealing with how to fund the next generation of our aviation system. It 
is obvious that the FAA faces major challenges in adapting to future 
changes in aviation, such as the expanded use of very light jets and 
the anticipated increase in overall air traffic volume. Couple this 
with the complex challenge of managing a modernization program as large 
as the Next Generation Air Traffic System and it is clear that the 
Department and the FAA will have its hands full. I am certain Senator 
Murray will conduct further hearings on FAA where we can better 
understand and address these issues, and we look forward to working 
with both you and Administrator Blakey on these immense challenges.
    Another area of concern is the proper way to adjust Corporate 
Average Fuel Economy (CAFE) standards for both passenger cars and light 
trucks. I was pleased to hear in the President's State of the Union 
that the administration proposes to reform and increase CAFE standards 
for passenger cars using sound science and detailed cost/benefit 
analysis and without impacting the safety of the motor vehicle fleet. 
In addition to the proposal for cars, I was glad to hear that the 
President supports the continued increase in fuel standards for light 
trucks and SUVs under an extension of the current light truck rule. 
Nevertheless, we need to ensure that we make appropriate CAFE reforms 
that will not discriminate against domestic automakers in favor of 
foreign automakers and that appears to remain a concern under the 
proposal.
    It is important for members of Congress and the traveling public to 
realize that CAFE is a complex issue that requires much thought and 
careful scientific analysis. In recent studies, several leading 
engineering and highway safety organizations including the National 
Academy of Sciences and NHTSA have warned that any significant 
increases in CAFE standards will have adverse impacts on the both 
safety of the traveling public and the economic health of an already 
struggling U.S. automotive industry.
    I close by noting that I have many concerns about the President's 
budget and funding proposals, both as proposed for this subcommittee 
(especially the funding proposed for housing programs that are a safety 
net for many low-income families, including seniors and persons with 
disabilities) as well as many of the funding proposals that are 
contained in the jurisdiction of other subcommittees. How we meet these 
demands will be a challenge for both the Appropriations Committee and 
the Congress.
    Thank you, Madam Chair.

    Senator Stevens. Madam Chair, I have another committee. I'd 
like to submit a question for the record concerning the Indian 
Roads Program. Would you do that for me, please?

  PREPARED STATEMENTS OF SENATORS FRANK R. LAUTENBERG AND SENATOR SAM 
                               BROWNBACK

    Senator Murray. The Senator has that right, and it will be 
submitted for the record. Senator Lautenberg and Senator 
Brownback have also submitted statements for the record, which 
will be included as well.
    [The statements follow:]

           Prepared Statement of Senator Frank R. Lautenberg

    Madam Chair, statistics tell a story. When it comes to 
transportation, the story they tell is of a system that is costly to 
consumer and is not safe.
    In 2005, more than 43,000 families lost a loved one in a car crash. 
And traffic on our roads costs Americans more than $60-more billion 
dollars a year--or 2.3 billion gallons--in wasted fuel.
    In 2006, flight delays were the worst they have been in 6 years, 
according to a report released yesterday by the Department of 
Transportation. One in four flights arrived or took off late. Because 
of delays, it often takes 2 hours to fly from here to New York and New 
Jersey, and you are only airborne for 36 minutes.
    But this budget does not offer a solution solve these problems.
    This budget seems to feed our addiction to oil. President Bush 
proposes full funding of highway programs but cuts to transit funding 
by more than $300 million. Cuts to Amtrak of almost $500 million would 
tear apart the national passenger rail system or send the company into 
bankruptcy.
    Who suffers here? Not the oil companies. Last year, Exxon made some 
$40 million in profits. Working families pay the price for our failure 
to act--people who trying to get to work, or get home from work. People 
who need transit options.
    I look forward to hearing witness testimony today.
    Thank you, Madam Chair.

               PRESS RELEASE, THURSDAY, FEBRUARY 8, 2007

    WASHINGTON, D.C.--United States Senator Frank R. Lautenberg (D-NJ) 
issued the following statement during today's hearing of the 
Appropriations Subcommittee hearing on the President's budget request 
for the Department of Transportation for fiscal year 2008.
    ``For a president who used his State of the Union Address to say 
that we are too dependent on foreign oil, it is ironic that his budget 
proposal would slash transit funding by $300 million, affecting 33 
million transit riders each weekday.
    ``Instead of making air travel safer, the President wants to leave 
old equipment in place and air traffic towers low on staff. Instead of 
giving commuters more choices by bringing Amtrak into the 21st Century, 
President Bush wants to give people fewer choices by destroying the 
nation's passenger rail system.
    ``Without adequate funding for Amtrak, rail service for New Jersey 
commuters who travel along the Northeast Corridor everyday could be in 
jeopardy.
    ``Given how crowded our skies and highways are becoming, I would 
have thought the President would propose more choices for New Jersey's 
commuters. Instead, he proposed fewer.
    ``I look forward to working with my colleagues to get this budget 
request on the right track.''
Is The Bush Fiscal Year 2008 Budget Proposal Addicted to Oil?
    Cuts funding for transit projects by more than $300 million when 
transit ridership is growing some 33 million transit riders each 
weekday.
    Cuts funding for Amtrak by 38 persent--$500 million--which is 
insufficient to operate National Passenger Rail System.
                                 ______
                                 
              Prepared Statement of Senator Sam Brownback

    Madame Secretary, I want to thank you for coming before this 
committee today to discuss the President's budget request for our 
Nation's transportation system. Before I go into my questions, I'd like 
to take a moment to speak on a topic that is of great importance to me 
and the people of Kansas, and that is aviation.
    You recently traveled to Wichita and made stops at some of the 
various aircraft manufacturers who call my State's largest city home. 
Kansans are proud of their legacy as the designers and producers of the 
world's finest aircraft, and the Air Capital of the World is home to 
five major aircraft manufacturers: Cessna, Spirit Aerosystems, Hawker 
Beechcraft, Boeing, and Bombardier Learjet. Last year, these companies 
employed over 31,000 people with a combined payroll of $1.65 billion. 
Additionally, they are the driving force of south-central Kansas' 
economy: they purchased over $1.9 billion in supplies from other 
Kansas-based companies. It is estimated that over 20,000 people are 
employed by subcontractors that provide services to the big five. 
Because of this, any indication of wholesale changes in the way the FAA 
does business sends shivers down the spines of thousands of my 
constituents.
    This budget, which we assume is a precursor to the administration's 
detailed plan for FAA modernization, proposes to make large changes to 
the way in which the aviation trust fund is financed. Significantly, I 
read here that the administration wants to shift from our current model 
to a user-fee based model. Also, I read that the administration will 
likely recalibrate the fuel tax rates for general aviation.
    First, I want to say that I understand the pressing need for the 
United States to update and modernize its air traffic control systems 
and get to a point at which the skies are open to fair usage by both 
airlines and private aircraft owners. However, I'm confused as to why 
the administration has linked the ability of the FAA to modernize with 
placing a greater share of the burden for paying for such updates on 
general aviation.
    Here in front of me, I have estimates that come from the 
President's fiscal year 2008 budget request, and these estimates 
indicate that over the next 5 years, the current financing structure 
for the aviation trust fund would actually result in more receipts than 
would a user-fee alternative. These estimates note that under the 
current financing structure, receipts into the trust fund would 
increase at either 5 percent or 6 percent per year until 2012, 
resulting in net receipts for those 5 years of $68 billion. These 
estimates further note that under a user-fee structure, receipts into 
the trust fund would increase anywhere from 2 percent to 8 percent per 
year with net receipts coming in at $67.1 billion. Additionally, the 
FAA's budget levels have increased at a steady rate for the past 12 
years. These numbers indicate that the FAA has been working with a 
stable increase in receipts from year to year for at least 12 years.
    If changing the financing structure of the trust would result in 
fewer receipts in the future, and the current structure has produced a 
stable funding mechanism in the past, why change it? I simply don't 
understand how the administration intends to modernize our air traffic 
control system by instituting a financing mechanism that shifts a 
greater financial burden to a marginal user of the system--general 
aviation--and results in fewer receipts into the trust fund.
    As to the budget's insinuation that the FAA will raise fuel taxes 
for general aviation, I want to remind the administration of a 
fundamental principle of economics: if you tax it, you get less of it. 
If you raise taxes on general aviation, you'll have fewer people flying 
small aircraft. General aviation users are sometimes portrayed as 
corporate fat cats who won't even notice a tax increase. However, the 
numbers tell a different story. Typically in 1 year, approximately 80 
percent of general aviation flight hours are consumed by people who are 
using single piston aircraft. In other words, these are small business 
owners and independent pilots who use only the smallest of small 
aircraft. These are the people who would be harmed the most by a tax 
increase on fuel. If a sharp tax increase becomes a reality, I'm sure 
many of them would find it uneconomical to fly.
    I hope you understand my concern with the administration's proposal 
on user fees and fuel tax increases. If instituted, they would have an 
immediate effect on my State's economy.

    Senator Murray. Senator Bond, thank you for your statement, 
and I am looking forward to getting the 2007 bill behind us and 
working together with you on this committee in a bipartisan 
way, as we have done so well in the past. I look forward to 
working with you.
    Senator Bond. Thank you.
    Senator Murray. For all the committee members, we have 21 
members on this committee, a large committee, so knowing the 
Secretary's time is concise this morning, we are going to have 
her make her statement and then we will have rounds of 
questions, 6 minutes per Senator, alternating between sides 
based on when you arrived. So we will move forward to Secretary 
Peters' opening statement and then to questions. Secretary 
Peters.

                    STATEMENT OF HON. MARY E. PETERS

    Secretary Peters. Madam Chairman and members of the 
subcommittee, I want to thank you--
    Senator Bond. Madam Secretary, could you pull that 
microphone--
    Secretary Peters. Will do, sir. Madam Chairman and members 
of the subcommittee, I want to thank you for the opportunity to 
be here with you today to share the highlights of President 
Bush's fiscal year 2008 budget plan for our Nation's 
transportation programs. Transportation, as you all know so 
well, lies at the core of the freedom we enjoy as Americans--
freedom to go where we want, when we want; freedom to live and 
work where we choose; and freedom to spend time with our 
families.
    Our goal is to deliver a transportation system that frees 
people to make daily decisions confident that they can reach 
their destination safely, without worrying about how they will 
get there or even if they can make it on time. To reach that 
goal, the President's budget requests $67 billion for America's 
transportation network. Nearly one-third of the department's 
resources will be devoted to transportation safety.

                         TRANSPORTATION SAFETY

    Madam Chairman, you are exactly right. There is no 
acceptable fatality rate when it's our loved ones, our 
communities, who are at risk. The President's budget proposes 
resources for equipping our Nation's airports and roadways with 
new safety technologies for targeting growing problems like 
motorcycle crashes, something that I have had a little 
experience with, and for supporting aggressive inspection of 
trucks, tracks, and pipelines to ensure the highest safety 
standards are met.
    In addition to supporting our efforts to raise the bar on 
safety, the President's budget will help cut congestion and 
bring our transportation system into the 21st century. For 
those who use our aviation system, it provides a framework for 
reforming our approach to paying for the safety and technology 
improvements needed to keep air travelers, freight, and pilots 
on schedule.

                          FAA REAUTHORIZATION

    We have put together a package that will tie what users pay 
to what it costs the Federal Aviation Administration (FAA) to 
provide those services with air traffic control. Our plan puts 
incentives in place that will make the system more efficient as 
well as more responsive to the needs of the aviation community. 
Without reforms, we can all expect to spend more time waiting 
in airports or strapped in an airplane seat, sitting at the end 
of a runway.
    While we will soon announce the details of our aviation 
proposal, I can tell you that the budget targets almost $175 
million for a 21st century satellite navigation system that 
will replace the current dated air traffic control 
architecture, as well as over $900 million for additional 
capital projects that will support the move to this Next 
Generation system. For travelers, this transformation is going 
to bring greater convenience and reliability to the state-of-
the-art technology that can safely handle dramatic increases in 
the number and the type of aircraft using our skies without 
being overwhelmed by congestion.

                           CONGESTION RELIEF

    And for drivers stuck in traffic, the budget proposes a 
record $42 billion in funding for highway and highway safety 
programs. Our budget proposes resources to help get traffic 
moving on clogged highways and city streets by directing $175 
million to support the comprehensive congestion relief 
initiative that was announced last year, and thank you, Madam 
Chairman, for recognizing that.
    This funding will help our growing metropolitan areas that 
want to lead with leading edge solutions. It will help 
distribute real-time traffic information to commuters, so that 
they will know prior to traveling when the roads are congested 
and be able to make alternative travel plans. And it will allow 
us to accelerate development of the trade and travel corridors 
that will be key to moving freight and people without 
congestion in the future, particularly at our ports of entry.
    Accessible and cost-effective transit projects also help 
fight congestion, and the budget provides $9.4 billion for 
transit programs. The funding includes $1.3 billion for major 
projects that will help provide commuter rail and other travel 
options in large urban areas, and another $100 million will 
support transit alternatives in smaller communities and in 
rural areas.

                   FUNDING TRANSPORTATION INVESTMENTS

    Even as we make these investments, we realize that a 
business-as-usual approach to funding these programs will not 
work much longer. There is, and will continue to be, money 
coming into the Highway Trust Fund from gasoline taxes, and 
revenues are growing every year, but so is spending, and at an 
even faster rate. The bottom line is that we're spending more 
than we're taking in, and we've nearly run through the balances 
that had built up in the fund.
    The highway funding problem is not going to go away, nor 
can we put it off until the last minute. So as we go through 
this budget process, I hope to start working with Congress now 
on solutions for long-term funding. In the long term, we need 
serious reform of our approaches to both financing and managing 
our Nation's transportation network to win the battle against 
congestion.
    Serious reform must include reform of the legislative 
process itself. The explosive growth of earmarks in recent 
years has hit transportation programs especially hard, and I 
sincerely appreciate the decision by this subcommittee not to 
include appropriations earmarks in the continuing resolution. I 
support President Bush's call for transparency and a 50 percent 
reduction in earmarks in the coming year. As a former State DOT 
director, I strongly support giving States the freedom to set 
priorities and use Federal dollars where they will provide the 
maximum benefits for their citizens.

                           PREPARED STATEMENT

    Madam Chairman, members of the subcommittee, thank you so 
much for giving me the opportunity to speak with you today. I 
look forward to working with each of you and the transportation 
community to ensure a safe transportation system, and to begin 
to break America free from stifling congestion. I look forward 
to answering your questions, and I am also joined here today by 
our Assistant Secretary for Budget and Programs, Phyllis 
Scheinberg. Thank you.
    [The statement follows:]

             Prepared Statement of the Hon. Mary E. Peters

    Madam Chairman, and members of the subcommittee, thank you for the 
opportunity to appear before you today to discuss the administration's 
fiscal year 2008 budget request for the U.S. Department of 
Transportation. Transportation lies at the core of the freedom we enjoy 
as Americans--freedom to go where we want, when we want . . . freedom 
to live and work where we choose . . . and freedom to spend time with 
our families. Our goal is to deliver a transportation system that frees 
all of us to make daily decisions confident that we can reach our 
destinations safely without worrying about how we will get there, or if 
we can make it on time. To reach that goal, President Bush is 
requesting $67 billion for America's transportation network in the next 
fiscal year.
    For those who fly, the President's budget includes $14 billion for 
the Federal Aviation Administration (FAA). The budget includes $175 
million to support the transition to a 21st Century satellite 
navigation system that will replace the current dated air traffic 
control architecture and over $900 million for ongoing capital projects 
that will also support the move to this Next Generation system. For the 
flying public, this investment is critical if we are to deploy the 
state-of-the-art technology that can safely handle dramatic increases 
in the number and type of aircraft using our skies, without being 
overwhelmed by congestion.
    Technology is critical, but the budget also includes significant 
resources to hire and train the people that keep the system safe. The 
fiscal year 2008 budget supports a total of 1,420 new air traffic 
controllers that will help replace controllers leaving the system due 
to retirements and other attrition. Based on our current projections 
this will result in a net gain of 144 controllers.
    Most importantly, the fiscal year 2008 budget provides the 
framework of a new proposal that the administration will announce 
shortly to tie what users pay to what it costs the FAA to provide them 
with air traffic control and other services. Our plan puts incentives 
in place that will make the system more efficient and more responsive 
to the needs of the aviation community. Without reforms to help finance 
increased air traffic control capacity and modernization, we can all 
expect to spend more time waiting in airports or strapped in an 
airplane seat, sitting at the end of a runway. We hope that there will 
be a vigorous debate about the structure of the system, and we look 
forward to working with the Congress to enact legislation later this 
year.
    For drivers, the budget proposes a record $42 billion, consistent 
with the funding envisioned in the Safe, Accountable, Flexible, 
Efficient Transportation, Equity Act: A Legacy for Users (SAFETEA-LU) 
for highway construction and safety programs.
    Building on our safety accomplishments over the last 6 years, this 
budget will allow us to target problem areas like motorcycle crashes 
and drunk driving. The President's budget includes $131 million for 
alcohol impaired driving countermeasures incentive grants as well as 
$124.5 million for Safety Belt Performance grants to encourage States 
to enact primary seat belt laws for all passenger motor vehicles.
    Crashes not only cost precious lives, but also precious time for 
everyone waiting for the road to be cleared and re-opened. So our 
budget supports aggressive development of ``Intelligent Transportation 
Systems,'' which put the latest technologies to work both to help 
eliminate crashes and to cut congestion. We believe that technology has 
a central role to play in reducing the growing costs of congestion and 
system unreliability. We are proposing $175 million to support specific 
elements of the comprehensive, department-wide National Strategy to 
Reduce Congestion announced last year. We hope to target these funds to 
support some of our most congested cities and explore cutting edge 
demonstrations of concepts such as time of day pricing, flexible 
transit systems, real-time traffic information, and improved incident 
management strategies. We also propose to accelerate development 
capacity and operations projects along our most congested trade and 
travel corridors through our Corridors of the Future program. We must 
get ahead of freight and travel trends along our most critical 
corridors to ensure that our interstate system continues to support the 
country's economic growth.
    Accessible and cost-effective transit projects also help fight 
congestion, and the budget provides $9.4 billion for transit programs. 
The President's budget includes $5.8 billion to help meet the capital 
replacement, rehabilitation, and refurbishment needs of the existing 
transit system. Also included is $1.3 billion for major projects that 
will help provide new commuter rail and other transit projects in large 
metropolitan areas. Another $100 million will be used to implement a 
new program with a simplified funding process to help provide smaller 
scale transit alternatives such as rapid transit, to relieve congestion 
in both urban and suburban locations.
    But even as we make these investments, we realize that a business-
as-usual approach to funding these programs will not work much longer. 
There is--and will continue to be--money coming into the Highway Trust 
Fund from gasoline taxes, and the revenues are growing every year. But 
so is spending, and at an even faster rate. We are spending more than 
we take in, and we have nearly run through the balances that had built 
up in the fund.
    We continue to be concerned in particular about the solvency of the 
Highway Account in the Highway Trust Fund. Our projections suggest that 
spending may outpace receipts before the end of fiscal year 2009. 
Because we do not want to burden the trust fund further, the budget 
proposal does not include $631 million for revenue aligned budget 
authority--or RABA. As we go through this budget process, I pledge to 
keep the Congress informed of the administration's revenue projections, 
and work closely with you to ensure that we do not outspend our 
resources.
    Long-term, we need serious reform of our approaches to both 
financing and managing our transportation network to win the battle 
against congestion. We must fully explore the variety of mechanisms 
available to us to pay for transportation, as well as analyze the 
relationship between each mechanism and overall system performance. 
Serious reform must include reform of the legislative process itself. 
The explosive growth of earmarks in recent years has hit transportation 
programs especially hard. The law that funds highway, transit, and 
safety projects had over 6,000 of them, a practice that takes away from 
the freedom that States have to put the money where it will do the most 
good. I want to reiterate the President's call to cut the number and 
cost of earmarks in half this year--which is vitally important if we 
are to maintain a transportation network responsive to our customers' 
needs.
    We also urge action on making needed reforms to the Nation's 
Intercity Passenger Rail system. The President's fiscal year 2008 plan 
provides a total funding level of $900 million for intercity passenger 
rail. Included in this total is $100 million for a new matching grant 
program that will enable State and local governments to direct capital 
investment towards their top rail priorities.
    Our ``safety first'' priority includes ensuring the safe and 
dependable transport of hazardous materials throughout the 
transportation network. The President's plan provides $75 million for 
the Pipeline and Hazardous Materials Safety Administration's pipeline 
safety programs specifically for this purpose.
    Finally, we are requesting $154 million to support a fleet of 60 
vessels in the Maritime Security Program--ensuring ships and crews to 
assist the Department of Defense with mobilization needs. Our support 
is critical in supporting our military as they give so much to protect 
our way of life.
    Freedom is at the core of our American values. But we lose a little 
more freedom each time we venture into traffic. This budget proposal 
takes a big step in helping us get our freedom back.
    Thank you for the opportunity to appear before you today. I look 
forward to working with the Congress and the transportation community 
to ensure a safe transportation system that helps America break free of 
stifling congestion.

    Senator Murray. Madam Secretary, thank you for your opening 
remarks, and I look forward to working with you. Before I move 
to my questions, I just want to mention that I know that Deputy 
Secretary Maria Cino has resigned and has moved on to other 
responsibilities. She did an outstanding job for the 
Department, and I just wanted to make special recognition of 
the work she did in challenging times, moving the agency 
forward. She has now been replaced by another capable woman, 
and as my friend Senator Mikulski says, with a lot of women and 
a few good men, we'll get some things done on transportation 
this year.
    Secretary Peters. Thank you, Senator.

                 FUNDING TRANSPORTATION SAFETY PROGRAMS

    Senator Murray. So I'm delighted to be working with you.
    Madam Secretary, as I said in my opening statement, the 
joint funding resolution that is now before the Senate provides 
an increase totaling $270 million for some of the critical 
safety programs in your agency. We included in that funding 
levels the Bush administration requested for 2007 air traffic 
control, aviation safety, railroad safety, truck safety, and 
pipeline safety. Our goal in doing that was to make sure that 
inspectors and enforcement agents were on the job rather than 
having to face furloughs.
    I wanted to ask you, while you were in front of us today, 
if you could describe for us what would be the impact on your 
overall safety mission if we do not pass the joint funding 
resolution and instead freeze programs for the remainder of 
this year.
    Secretary Peters. Madam Chairman, as you indicated earlier, 
if we were funded at the 2006 levels without any opportunity 
for adjustment, it would have drastic consequences not only at 
the FAA but, as you mentioned, within other safety programs 
such as our rail safety programs, our truck inspection 
programs, and of course the air traffic controllers and safety 
inspectors of aviation maintenance facilities. We very much 
appreciate Congress considering adjustments to that process 
that would avoid these very negative consequences in our 
budget. We also would ask for, to the extent possible, 
flexibility in order to reprogram money within some of the 
funds so that we can meet these high priority safety needs.
    Senator Murray. Thank you. And we're already into the fifth 
month of the current fiscal year. I assume your administrators 
need to know when this funding is coming fairly soon?
    Secretary Peters. Absolutely, Senator.
    Senator Murray. Well, when it comes to hiring and employing 
adequate safety enforcement officials, tell me what the impact 
would be if we don't get this done by next Thursday.
    Secretary Peters. If not able to do this, we will see a 
serious decline in the number of safety inspectors, truck 
safety inspectors, rail safety inspectors, aviation inspectors, 
across-the-board in our programs. Madam Chairman, it would also 
eliminate some of our ability to work on important safety 
improvements that we need to make for the traveling public and 
those who use our aviation system.
    Senator Murray. You used to serve as a State transportation 
commissioner as well as the Federal Highway Administrator. The 
joint funding resolution proposes to boost highway formula 
spending to all 50 States by $3.4 billion. It's already well 
into February, and the States still don't know whether they're 
going to see this 9.6 percent increase. Can you describe for us 
what State transportation commissioners are saying today?
    Secretary Peters. Certainly, Madam Chairman. It is critical 
for State transportation commissioners to know how much money 
will be available to them in order to execute their capital 
improvement programs. It is especially important to those 
States who have a construction season that will be upon us very 
shortly. If they are uncertain that this funding is coming and 
unable to let contracts accordingly, we can easily miss an 
entire construction season.

                         HIGHWAY FATALITY RATE

    Senator Murray. Okay. Thank you very much for outlining 
that, and I hope that we can all work together to get this out 
soon, so that they can get to work and we don't miss that 
construction season, so thank you.
    Let me go to what I talked about in my opening statement, 
about the recent highway fatality data that has been released 
by your department. It's very disturbing, frankly. The number 
of highway fatalities grew to 43,400. That is a rate of 1.45 
fatalities per 100 million vehicle miles traveled. That figure, 
as I said, represents the highest number of fatalities since 
1990, and in real terms it means 1 life lost on our Nation's 
highways every 12 minutes.
    Given those really grim statistics, why is your Department 
actually weakening your goal of reducing the fatality rate to 
1.0 next year?
    Secretary Peters. The Department of Transportation is 
firmly committed to meeting its goal of the 1.0 fatality rate, 
but we have realized that we won't be able to achieve that goal 
by fiscal year 2008 as planned. To move the fatality rate even 
one-tenth of a point requires preventing approximately 3,000 
additional fatalities at current fatality and vehicle-miles-
traveled (VMT) levels, but we recognize how important it is to 
do so.
    The Department has assembled a cross-modal working group to 
identify new strategies and technologies that will help reduce 
highway fatalities. The working group is analyzing trends and 
taking into account new technologies that are coming into the 
fleet such as the electronic stability control. Electronic 
stability control has the promise of saving as many lives as 
the seat belt did when it first came into prevalent use.
    We want to use these tools to establish new performance 
targets in key areas, to focus the Department's effort on the 
critical factors responsible for these highway fatalities, and 
especially this very tragic increase. These key focus areas 
include passenger vehicle occupants, non-occupants such as 
pedestrians and bicyclists, motorcycle riders, and large trucks 
and buses. These groups were chosen, in part, to cover the 
breadth of users.
    Madam Chairman, I have heard you this morning about how 
important this is, and I promise you that I will personally go 
back and redouble our efforts to work on these safety issues, 
and call upon my colleagues throughout the transportation 
community to make this a very, very important issue this year.
    Senator Murray. Well, I assume that you're not happy with 
having to move your deadline down 3 years on this.
    Secretary Peters. I'm not.
    Senator Murray. And I guess I was really disappointed. 
You've got some great, bold new proposals in your budget on 
combating congestion, which we all agree is a problem, and I 
was hoping to see some bold new proposals that could take 
effect immediately, because these numbers have been coming at 
us for some time now and it's pretty disheartening.
    So I hope that we can come back to this and talk about this 
again. And as I said, I will be having some hearings on this 
because I think it's something that we can't push down the road 
3 years from now. With that, I'm going to turn to Senator Bond, 
and I will come back to this issue again in my next round.

                           HIGHWAY TRUST FUND

    Senator Bond. Thank you, Madam Chair. And, Madam Secretary, 
we know that we've got some problems in both the funding for 
the Aviation Trust Fund and the Highway Trust Fund. We've seen 
several Highway Trust Fund runs showing a negative balance of 
approximately $200 million by 2009. This is, as I indicated, 
the first time to my knowledge that the administration has not 
proposed funding the RABA funds.
    You, as a former chair of the National Commission for the 
Future of the Highway Trust Fund, have been deeply involved in 
this question for a long time. Does the administration have a 
position on how to address the Highway Trust Fund going down, 
going into the red by 2009?
    Secretary Peters. Madam Chairman and Senator Bond, we are 
working on that as we speak. As you mentioned, I chair a 
commission that was appointed by this Congress to look at the 
future of surface transportation funding, and it's something we 
take very seriously.
    In the near term, Senator, the administration has begun to 
take action to protect the solvency of the Highway Trust Fund, 
and these actions will result in a projected $238 million 
shortfall in 2009, as opposed to the Congressional Budget 
Office (CBO) projection, which is $3.62 billion. The safeguards 
that we have taken in order to protect the solvency of the fund 
include, as you mentioned, our recommendation that we not 
include the $631 million in revenue aligned budget authority in 
the program this year.
    Another step that we have taken is a new accounting 
procedure where we use flex funding from the highway account of 
the Highway Trust Fund to the mass transit account when the 
money is actually needed for outlays, rather than in one lump 
sum when the contract authority and obligation authority are 
transferred. Because the mass transit fund outlays at a slower 
rate, there isn't any harm to the fund in our doing this.
    But, Senator, I agree with you. We have to do something, 
and we have to do something in the nearer term, not the longer 
term. And you have my commitment to work with you in the coming 
year to look at possible solutions.

                          FAA REAUTHORIZATION

    Senator Bond. We'll look forward to that. Do you have any 
idea yet how the administration's plans to deal with the 
Aviation Trust Fund will impact the funds required from general 
revenue and the trust fund in this committee for the 2008 year?
    Secretary Peters. Senator, in our budget that we have 
submitted, we have outlined some of the initial steps that we 
would like to take in order to modify and modernize funding for 
the air traffic control systems and for aviation safety in our 
Nation. I wanted to take just a moment of your time to talk 
about some of the limitations that have resulted in less than 
optimal customer service within the current system.
    Safety is, and must always be, our highest priority, but we 
have seen more delays and a lack of reliability due to capacity 
and capability of the current system. In fact, many of you, 
like myself this morning, saw this headline in our own 
Washington Post, ``Flying Late, Arriving Light.'' Too often we 
have delays in our transportation system, and we seek to remedy 
those delays within our proposed funding.
    I wanted to share with you some of the statistics that have 
alarmed me, and I think all of us, in terms of what we need to 
look to in the future. In less than 10 years the Nation's air 
space will be 30 percent more crowded than it is today.
    By 2012, FAA projects 23 percent more passengers will be 
flying, and by 2025 U.S. commercial carriers will be carrying 
1.4 billion passengers. That is nearly an 87 percent increase 
over the number of people who are flying today. In 2012, FAA 
projects that aircraft handled by FAA en route centers will be 
17.6 percent higher than in 2006, and by 2025 that demand will 
increase to 86.5 million aircraft, an increase of 87 percent.
    The current funding structure that's based largely on the 
price of a ticket provides no direct relationship between the 
taxes paid by the users and the air traffic services provided 
by the FAA. In order to meet both current and future consumer 
demand, we need to transition to a dynamic 21st century 
structure that ties the use of the system to the cost, a system 
that is equitable and a system that is responsive to demand.
    We have developed a proposal in consultation with the Joint 
Program Development Office and many of our stakeholders. That 
plan is represented in the President's budget and will also be 
in our reauthorization proposal next week.
    Senator Bond. Thank you very much, Madam Secretary. That 
headline about arriving late kind of struck home to me. Twenty 
days ago, in the middle of a snowstorm, I arrived at Reagan 
Airport in Washington, and the plane landed at 6:40. They said 
the gates were filled, so we sat on that plane, two other fully 
loaded planes, sat there during, I might add, during the first 
three quarters of the Colts-Patriots game, and we offloaded 
that plane at 9:20, 2 hours and 40 minutes later.
    Needless to say, this does not generate happy feelings 
among the flying public. I commended the attendants on board 
for being nice. The pilot was funny. But the whole problem is 
absolutely unacceptable, which I have shared with the airline 
as well. But I also, just in case anybody thought I was not 
counting, I did count the time and I do remember it.
    But I also fly, I have 1 million frequent flyer miles on 
small airplanes, and we need to find adequate funding for the 
AIP program, or the Nation's airport infrastructure is not 
going to keep up with demand. Are you going to have a proposal?
    Secretary Peters. Senator, yes, we are going to have a 
proposal. Proposed changes to the Airport Improvement Program 
(AIP) and the passenger facility charges will be forthcoming in 
our reauthorization proposal, which again, we hope to deliver 
to you next week.
    Senator Bond. Thank you very much.
    Senator Murray. Thank you, Senator Bond, for sharing.
    Senator Lautenberg.

                          AIR TRAFFIC CONTROL

    Senator Lautenberg. Thanks, Madam Chairman. This is the 
first time in 6 years that I have sat in the Transportation 
subcommittee, any subcommittee on Appropriations. In my 
previous service for 12 years I was either ranking or chairman 
of this subcommittee. I used to like that.
    And I still like it, and I hate to think that I have to 
stay another 18 years to regain that position.
    When I look at the proposal--and welcome, Madam Secretary--
that has been offered in the President's budget, I see a lot of 
woe out there, and I don't mean W-H-O-A. I'm talking about W-O-
E. In your testimony you introduced the fact that 1 in 4 
flights these days is either late going or late coming, but 
late, and I see it.
    I fly a lot to the New Jersey, New York airports. I live 
midway between LaGuardia and Newark Airports, depending on the 
traffic flow, and the flight is listed to be 36 to 40 minutes. 
That's after sometimes a 1-hour delay sitting on the ground or 
waiting for a gate when you finally get there. And so the 
proposal to increase the air traffic control population by 140-
some, it's a rounded number, strikes me as being an impossible 
solution to the problem.
    We know that light jets are going to be pouring into the 
sky, purportedly 5,000 of them in the next 10 years. That's not 
going to make it easier to manage the traffic. And when you 
look at the number, you're proposing over 1,000 hires but it's 
going to be a net of 140-something with the retirees.
    How are we going to manage this traffic? We talk about 
safety being the principal factor, 45,000 people dying on the 
highways, and the delays in air travel that worry people, the 
unwillingness to finance Amtrak at a rate that makes sense. How 
do you justify that small number of additions to the controller 
population?
    Secretary Peters. Senator Lautenberg, you bring up a very 
important point, and we very much value our air traffic 
controllers who make sure that our airspace is safe. 
Accordingly, the President's budget provides funding to bring 
the total number of air traffic controllers to nearly 15,000.
    An important fact is that controllers today operate the 
same number of aircraft as controllers did in the year 2000, 
and certainly there are more controllers and more airplanes in 
the sky today. We will have our updated controller work force 
plan out in March of this year. Administrator Blakey and I 
would be happy to share it with you at that time, Senator. The 
plan will demonstrate that we are ensuring adequate numbers of 
controllers.
    Senator Lautenberg. Yes, but we're short now. It's 
estimated that there are almost 1,000 less air traffic 
controllers than 3 years ago, and the strain is obvious. So how 
do we look forward to managing what we've got? I don't see any 
way to do it, and I think the numbers are disastrously short.

                                 AMTRAK

    Let me talk for a minute about Amtrak. The company's last 
projection for fiscal year 2008 calls for almost $1.7 billion 
in Federal funding. So why does the President only request less 
than half of that, $800 million for Amtrak? Included in that, 
by the way, is a substantial amount of money owed on debt that 
must be paid each year. The number is over $285 million. What 
do we do to keep this thing going, besides going into 
bankruptcy?
    Secretary Peters. Senator, we also are concerned about 
Amtrak, and we are very pleased to have seen a lot of progress 
in the last year by the Amtrak board and the Amtrak management. 
The President's budget for 2008 does support Amtrak and 
recognizes----
    Senator Lautenberg. How much? Can you tell me?
    Secretary Peters. I'm sorry, sir?
    Senator Lautenberg. What kind of progress did we see in the 
last year?
    Secretary Peters. In terms of the Amtrak board, sir, they 
are controlling costs in a better way. They are looking at 
their operating subsidies and attempting----
    Senator Lautenberg. I'm sorry. That's a little too general 
for me. There are still empty chairs on the Amtrak board. Have 
you yet been to an Amtrak board meeting?
    Secretary Peters. Sir, I have not been to an Amtrak board 
meeting. I have, however, met with members of the board, and I 
also have met with Alex Kummant and talked with him about 
Amtrak. As I said to you in my confirmation hearing, Senator, I 
do support intercity passenger rail, and want to work with you 
and with the Amtrak board to make sure that they continue to 
provide service to Americans.
    The other factor, though, sir, is that they do have fiscal 
resources in addition to the President's budget proposal of 
$900 million. They have approximately $2 billion in normal 
operating revenue that comes in each year. They also have 
nearly $250 million in State subsidies, and with the $100 
million that we have proposed for the intercity rail grant 
program that could encourage more State participation, they 
could avail themselves of another $100 million in matching 
funds.
    Senator Lautenberg. It was said that they need $1.8 billion 
for the next year, so to come back and say, ``Well, there are 
other sources,'' the other sources are not sufficient to give 
the railroad the money it needs to improve the structure, the 
capital structure, or to support the operating losses. And at a 
time--and Madam Chair, I'm sorry--when security is so much on 
everybody's mind, here we are, we're locked into aviation, we 
spend a lot on highways, and we need a third leg on our 
transportation tripod in order for us to be able to manage. 
Heaven help if we need an evacuation in a time of trouble.
    Thank you, Madam Chairman. Thank you, Madam Secretary.
    Senator Murray. Senator Alexander, do you have any 
questions?

                           CONGESTION RELIEF

    Senator Alexander. Thank you, Madam Chairman. I look 
forward to being a member of the committee.
    Madam Secretary, thank you for being here. I'm impressed 
with the attention you're paying to surface congestion, and the 
numbers that you have in your budget are really staggering. I 
mean, we take these things for granted or we have come to 
accept them. You say 3.7 billion hours of travel delay, 2.3 
billion gallons of fuel costing $63 billion. That's a lot of 
money and time and lost productivity.
    And you list a number of things that you're encouraging to 
try to reduce traffic jams which occur in almost every major 
city in America today, but based on your own experience, what 
do you see as the most promising ideas for making a real 
difference in the traffic jams and congestion that Americans 
experience every day driving to and from work?
    Secretary Peters. Senator Alexander, thank you for giving 
me the opportunity to answer that question. Some of the most 
promising things I see in terms of relieving congestion and 
getting our transportation system to flow more smoothly are 
within the technology realm. Many of our intelligent 
transportation systems can help us manage traffic in real time.
    The sad fact is that once traffic breaks down, it takes up 
to four times longer to get that traffic moving again. So if we 
can use technology to inform us of what's happening on the 
system, to give motorists the information they need, that 
certainly is one of the most promising aspects.
    But another aspect, sir, that is very promising in terms of 
relieving congestion is using road pricing, dynamic pricing, or 
variable pricing as it's sometimes called. On roads in southern 
California that are using dynamic pricing, we have found that 
we can get up to a 40 percent increase in throughput by using a 
pricing model on the same lane configuration. An adjoining, so-
called, free lane gets 40 percent less throughput than does the 
price lane.

                   USE OF CELL PHONES DURING FLIGHTS

    Senator Alexander. I'll switch to another subject. The 
Federal Communications Commission is currently considering 
proposals to allow passengers on airlines to use cell phones 
after takeoff. The FAA has some rules about that which limit 
the use of cell phones during flight for safety reasons.
    I can think of some other reasons that that might not be a 
good idea, that have something to do with safety. It seems to 
me that it would add to the cost of travel. I mean, you would 
have to hire more air marshals to stop the fistfights when 
people started yakking on their cell phones.
    You would have to land, have emergency landings of the 
airplane to deal with the heart attacks and the injuries that 
would occur. You would have additional stress for 2 million 
travelers, who would come home after being strapped in between 
two people talking about their love life and their office 
personnel policy as they go along.
    So I think it's cruel and unusual punishment even to think 
about the prospect of that, and I wonder what steps you're 
taking to--I wonder what the status of that is and whether we 
can expect that as we travel, that we'll be--that cell phones 
will be permitted after takeoff?
    Secretary Peters. Senator Alexander, I certainly share your 
concern about being trapped and strapped into a seat with 
someone carrying on a loud phone conversation on a cell phone 
next to me. I am not immediately aware of what the status is, 
sir, but I will look into that and get back to you as soon as 
possible.
    [The information follows:]

    The Federal Communications Commission (FCC) issued a Notice of 
Proposed Rulemaking (NPRM) on February 15, 2005 proposing to relax the 
ban on 800 MHz cell phone use on aircraft in-flight. Prior to issuance, 
the FAA had provided suggested language, which was adopted by the FCC, 
to mutually assure adequate protection of airborne and ground systems.
    The FAA position remains the same on the use of cell phones in-
flight. Before an operator can allow the use of Portable Electronic 
Devices (PEDs), including cell phones, it must determine that device 
won't interfere with any aircraft system.
    FAA, along with the FCC, participates on the Radio Technical 
Commission for Aeronautics (RTCA) committee that was formed to develop 
the guidance procedures for PED allowance. RTCA continues to work on 
this issue.
    One of the most contentious issues regarding in-flight cell phone 
use is the ``loud-talking seat mate'' concern. FAA shares this concern 
and, if cell phone use is allowed, the FAA will continue to monitor its 
impact on a flight crew's ability to perform critical safety duties.

    Senator Alexander. I would appreciate that. We value our 
freedoms in America, but I think you put it pretty well. In 
this case we don't have a choice. We're assigned a seat, we're 
strapped in it, we don't know who is next to us. So I hope it's 
something you'll pay attention to, and I'll look forward to 
hearing from you, what you find out.
    Thank you, Madam Chairman.
    Secretary Peters. Thank you, sir. I will do so.
    Senator Murray. Senator Bennett.
    Senator Bennett. Thank you, Madam Chairman. Welcome, Madam 
Secretary.
    Secretary Peters. Thank you.
    Senator Bennett. I hadn't planned to go into this, but I'm 
stimulated by Senator Lautenberg.
    Senator Lautenberg. Thank you.
    Senator Murray. Thank you for sharing.
    Senator Lautenberg. Intellectually.
    Senator Murray. I think this committee hearing is really 
getting out of hand.

                                 AMTRAK

    Senator Bennett. As members of the committee have heard me 
say, maybe too often, I helped create Amtrak when I was serving 
at the Department of Transportation under Secretary Volpe 
during the Nixon administration, and I remember assuring the 
Congress--it was my responsibility to sell the idea to the 
Congress--I remember assuring the Congress that within 2 or 3 
years Amtrak would be a freestanding private corporation, for 
profit, and there would be no Federal money involved. We are 
decades away from that promise, and it is clearly never going 
to come to pass.
    You have talked a great deal about congestion relief, and a 
viable passenger rail, passenger system in corridors where 
there is a tremendous amount of traffic can be, should be a 
major form of congestion relief. Maybe we should be thinking 
about the Amtrak budget less in terms of, ``Gee, this is what 
they need to maintain their present relatively inadequate 
service,'' to ``This is what we need to spend to get some 
congestion relief in this area.''
    Now, the area where I part company with my friend from New 
Jersey has to do with the question of whether or not rail 
passenger should be a national system, and I have repeatedly in 
these hearings offered up Amtrak service in Utah to help get 
rid of the deficit, because the number of passengers that come 
into Salt Lake City could be handled on a single bus. One 
airplane a month, practically, if it were a 747, could fill the 
entire rail passenger usage into Utah, and the amount of money 
that is spent maintaining these long-range hauls for very few 
passengers has always struck me as being a foolish expenditure.
    I would be more than happy to have that money go into the 
Boston-Washington corridor to give reliable, fast service to 
get people off the airplanes. But when I take Amtrak to New 
York, as I have done, frankly the on-time performance of the 
Delta shuttle is a whole lot better. Even when you add showing 
up at Reagan 1 hour early to get through security, and the 
mind-boggling, harrowing taxi ride from Laguardia into town, 
and add those two time delays onto the 45-minute flight, you 
will get there faster on the airplane than you do on Acela, 
that is supposed to be the high-speed system, and it's almost 
always broken down or it runs into some other kinds of delays, 
and I very, very seldom have had an Amtrak experience that has 
been on time.
    So maybe we need a think tank of some kind within the 
Department of Transportation to say break out of the 
traditional stovepipes of saying we have this for rail traffic 
and we have this for bus traffic and we have this for airline 
traffic, and say okay, we have this many people that need to 
get across this piece of real estate, and what is the most 
efficient, rapid, logical way to move them? And then maybe we, 
in the name of congestion relief, take some money out of the 
Airport/Airways Fund--I don't know what you call it now, that's 
what we called it when we created it--and say for congestion 
relief we're going to supply Amtrak with these kinds of funds 
that will allow them to become reliable.
    I've taken an Amtrak situation, I could have gotten across 
the country in an airplane in the period of time I spent on the 
train, and cabin fever on the train gets to you after a while 
when you're constantly stopping for this or slowing down for 
that. You can only see so many back yards by the time you say, 
``Well, the scenery doesn't excite me anymore.''
    So I just raise that. I'm a conservative Republican who 
doesn't like to spend money, but the benefit of relieving the 
congestion in this most highly populated part of our country is 
something we ought to look at. And every year we go through the 
same Kabuki dance. Every year it's, ``Why is Amtrak losing 
money?'' ``Well, we've got a new plan.'' ``Well, the board is 
being tight now.'' ``Well, we've got cost-cutting.''
    Maybe we just push all that off the table, take a clean 
sheet of paper and say we've got so many people that we have to 
move in this corridor, and what's the best way to move them? 
And if the best way to move them is by buses that are 
controlled by GPS systems and smart transportation, let's spend 
the money to do that. If the best way to move them is by train, 
and it's a high-speed train that goes at 150 miles an hour, 
let's spend the money to get track that stays up and stays 
operative at 150 miles an hour, instead of it's always down and 
always broken. And look at the whole situation, to use a term I 
learned at the department, intermodally, but perhaps with a new 
view of intermodal transportation than we ever had before.
    Could you think about putting together a group of smart 
folks and locking them in a hotel room to think about this 
until they come out with some answers?

                           SYSTEM PERFORMANCE

    Secretary Peters. Senator, I think you make a very valid 
suggestion, and I certainly will talk with people back at the 
Department and within the industry about this. It is one of the 
challenges that the Surface Transportation Policy and Revenue 
Study Commission is looking at very closely, in fact. We're 
looking at how can we meet transportation demand in better ways 
than we have in the past, both in terms of freight and in terms 
of passengers.
    It's one of the goals that I gave the President when I 
accepted the nomination, and you graciously confirmed me here 
in the Senate. I want to look at how our system is performing, 
as well as our funding and authorizing structures, and 
determine if they are meeting our needs in the way they should. 
I share your concern about the modal silos; we need to break 
those down and look more comprehensively at transportation for 
the future than we have in the past.
    Senator Bennett. Thank you. One last quick comment, Madam 
Chairman.
    Senator Murray. I've been very generous with you.
    Senator Bennett. All right. Never mind.
    Senator Murray. Senator Allard.

          DENVER SOUTHEAST CORRIDOR LIGHT RAIL PROJECT (T-REX)

    Senator Allard. Thank you, Madam Chairman. I come to this 
subcommittee as former chairman of the authorizing subcommittee 
on mass transit. It's a subcommittee on banking. And if there 
ever was an agency that overpromises and underdelivers, it's 
Amtrak. You ought to look at some of our hearings if you want 
more information on that.
    But I want to talk about a project that we have had in 
Colorado. It's called T-REX. It's a combination of rail and 
highway. I've talked to them about not overpromising to the 
Department of Transportation, certainly, and then 
underdelivering. That's very important. So I stressed it to 
them, how important it was that they keep the project on time--
it's a huge project--and they do it within budget. They 
accomplished both those goals.
    The most discouraging thing to me is that now the Congress 
and the national Department of Transportation are not keeping 
their end of the deal, and they have not put the money into the 
project to pay for their shared cost. In fact, the local 
governments had to borrow money to cover the cost that the 
Federals should have been carrying on their share of the deal.
    I hope that when you work with local governments and States 
on these projects, that you don't overpromise and underdeliver, 
because I think that everybody's better served if we just watch 
and make sure that we don't overpromise and underdeliver. 
That's one particular case that's right in my backyard, that I 
think deserves mentioning. I think that we probably have to 
carry the message back to our States to be careful about the 
kind of project size, and make sure again that there is some 
fiscal responsibility and that it's going to serve the 
constituents and taxpayers the way it should.
    The other thing that I wanted to bring up is, you asked the 
question about or you have in the budget--and Senator Alexander 
I think talked about this, about programs that relieve 
congestion on the highways. There are a couple of programs that 
we've already put in place, we authorized.

                  TRANSIT NEW STARTS AND SMALL STARTS

    One is the new starts program, the other one is the small 
starts program. New starts was to encourage large communities, 
large cities to get into the mass transit system, and small 
starts was to go down to a smaller size city and encourage them 
to put together some mass transit systems that work. These 
programs are not being fully funded in your budget.
    Congress has already in many ways begun to address what it 
is that we can do to get people off the congested highways. 
High technology is some thing that can be done but it's going 
to have minimal effect. I think we have some programs right now 
that, if you go ahead and provide the money for them, they're 
going to help get people out of congested situations on our 
highways.
    I'd like to have you respond to those two, if you would, 
please.
    [The information follows:]

    The Full Funding Grant Agreement (FFGA) for the Denver Southeast 
Corridor, signed in November 2000, provides a total of $525 million in 
New Starts funds for fiscal year 1999 through fiscal year 2008. The FTA 
seeks the amount indicated in Attachment 6 to the FFGA, a year-by-year 
agreed upon funding commitment in the FFGA as part of the President's 
annual budget request. By the end of fiscal year 2006, $366.2 million 
had been appropriated for the T-REX project. This amount is $27.2 
million less than the Attachment 6 amounts in the FFGA for fiscal year 
1999 through fiscal year 2006. Thus, as you mentioned at the hearing, 
there is a shortfall in the amounts appropriated compared to amounts 
requested in the President's annual budgets for these years.
    The President's budget for fiscal year 2007 requested $80 million, 
the FFGA Attachment 6 amount for fiscal year 2007. I am pleased to 
inform you that the President's budget for fiscal year 2008 requests 
$78.8 million, compared with $51.6 million in the FFGA Attachment 6, 
which will make up for the shortfall that you expressed concerns about 
during the hearing. lithe fiscal year 2008 appropriations are enacted 
in accord with the President's budget request, the Denver Southeast 
Corridor project will be fully funded in accord with the Federal 
commitment originally called for in the FFGA.

                  TRANSIT NEW STARTS AND SMALL STARTS

    Secretary Peters. Senator, I certainly understand your 
concern about funding for transit in general, and the small 
starts and the new starts program specifically. Sir, we had 
some tough budget decisions to make within the administration, 
much like you do here on the Hill as well, and we endeavored to 
put as much money as we could to these programs.
    But, as has been indicated earlier, we are funding transit 
about $309 million below the fiscal year 2008 level authorized 
in SAFETEA-LU. In the President's budget, we also have put the 
brakes on the revenue aligned budget authority (RABA) for the 
highway program, to the tune of $631 million.
    But, sir, I will assure you that the President's budget has 
provided funding for every project that's ready to go in our 
fiscal year 2008 budget proposal. No projects that are ready 
for funding have been left on the table, and we have funded 11 
existing full funding grant agreements, and have sufficient 
funding for two pending and two proposed grant agreements. We 
also have set aside $72 million for six projects that aren't 
quite there yet, but we will continue to watch those projects, 
Senator, to make sure that we're not dropping funding.
    For small starts projects, we have set aside $51.8 million 
for four projects that have been approved to date and reserved 
$48.2 million for additional small starts projects. One of the 
issues with smalll starts is that the regulations governing the 
program will not be fully in place until 2008, so we don't 
believe that there will be more projects than the $100 million 
would satisfy in the near term.

                     ESSENTIAL AIR SERVICE PROGRAM

    Senator Allard. Another program I wanted to bring to your 
attention is called the Essential Air Service Program. This 
enables air carriers to provide service between selected rural 
communities and hub airports. Now, the fiscal year 2008 budget 
proposes funding of $50 million, less than half that provided 
for in the House-passed continuing resolution. Can you explain 
the impact on the program if we were to fund at less than half 
of the current level?
    Secretary Peters. Senator, I understand how important the 
Essential Air Service Program is to a number of small 
communities, and the President's budget includes $50 million to 
continue service to the most isolated communities. Clearly this 
amount of money would not meet every eligible community's 
needs.
    So our recommendation is to limit funding to those 
communities that are currently subsidized by the EAS program, 
that are more than 70 driving miles from the nearest large- or 
medium-hub airport, and the subsidy does not exceed $200 if the 
community is more than 70 miles but less than 210 miles from 
the nearest large-or medium-hub airport. We would then rank 
communities that are eligible under these criteria and allocate 
the $50 million to the most isolated communities.
    Senator Allard. With those priorities and that way of 
establishing priorities, do you think you'll have enough money, 
then, for half of the fiscal year?
    Secretary Peters. Sir, we believe we'll have about enough 
for the most isolated communities.
    Senator Allard. How is that funded? I mean, where does the 
money come from for that?
    Secretary Peters. I'm going to turn to my Assistant 
Secretary for Budget for that question.
    Ms. Scheinberg. The money comes from overflight fees that 
FAA collects.
    Senator Allard. Okay. Thank you. Thank you, Madam Chairman.
    Senator Murray. For the committee members, I've been very 
generous recognizing Senators as they come in and have not gone 
back to our side. Senator Brownback has come in. I'm going to 
allow him to speak. I will then return and reclaim my time, 
Senator Bond, and back to Senator Lautenberg.
    Senator Brownback.

                          FAA REAUTHORIZATION

    Senator Brownback. Yes, thank you, Madam Chairman. I 
appreciate that. And Madam Secretary, delighted to see you, 
glad to see you were in my State not long ago, in Wichita, 
meeting with the aircraft manufacturers. They appreciate that 
greatly, and we appreciate it. It is, as you saw, a big 
industry in our State and they're doing quite well now. That 
hasn't always been the case. Some of the changes in the tax 
laws here and the growing economy have really made a big 
difference for them, and so they're hiring and doing very 
nicely.
    One of the things they're real concerned about, and I want 
to get some of your thoughts on this, is shifting some of the 
burden on FAA modernization to general aviation. I had a group 
in my office yesterday. They, as I mentioned, they're growing. 
You saw them, what's taking place. It is a world class 
manufacturing operation. They're engaging more and more global 
competition, and they're just fearful that you're going to 
shift a bunch of the FAA costs onto general aviation.
    And so I want to get you, if you could, to address some of 
these questions and concerns. Particularly there was an article 
in the Wall Street Journal this past Tuesday where the FAA 
Administrator said this: ``I'm talking about shifting of cost, 
not increasing of cost.'' Now, we can assume that the shift in 
question would result in increasing the burden on general 
aviation, or that's what we're hearing. Now, is that the plan? 
Is it to shift it more to the general aviation manufacturers, 
or not? I'd like to hear your comments about that.
    Secretary Peters. Senator Brownback, we certainly 
appreciate the general aviation community, and they provide a 
very important service in the United States. Our 
reauthorization proposal will be out next week, and I believe 
that if we could wait until we have that document, I can more 
fully answer your question about the impacts of modernizing the 
air transportation system on various industry segments.
    Senator Brownback. Well, I appreciate that. That doesn't 
give much solace. If you were addressing the Wichita City 
Council, my guess is they would want a little more fuller 
discussion or an assurance from you that you're not going to 
shift costs to general aviation.
    I was noting in some of your budget projections that if you 
stayed within the current fee structure, you would actually 
raise more revenue than if you shifted a fee structure that's 
being projected under new user fee proposals. The current one 
would produce $68 billion and the new fee structure, $67.1 
billion.
    My point in saying this I think probably should be obvious. 
Here's an industry that's growing. It's doing well. But if you 
start putting on a 40 percent increase in general aviation fuel 
taxes, that's going to have a big hit in the system and it's 
going to drive a reduction in purchasing of the aircraft.
    I hope you can understand that these have direct 
implications. The industry took back off after we made some tax 
changes here to allow people to purchase aircraft. It really 
helped the industry. But you can also do it in reverse and hurt 
it a great deal as well.
    Are those being contemplated, increasing fuel taxes for 
general aviation?
    Secretary Peters. Senator, I know that the structure is 
being looked at. Again, not to be disrespectful of the 
question, I would prefer to answer that once the 
reauthorization proposal is out, so that I can correctly answer 
what might be included in the new funding system.
    Senator Brownback. Okay. I notice that you do have in your 
Department of Transportation budget proposal this statement: 
``General aviation users would continue to pay a fuel tax that 
would be deposited in the Airport and Airway Trust Fund. Fuel 
tax rates will be calibrated based on the costs these users 
impose on the system.''
    That sounds like to me an increase in fees is in your base. 
Now, I don't mean to try to trick you, but that's in your base 
document.
    Secretary Peters. Senator, yes. We have heard from the 
general aviation community, and I certainly heard this when I 
had the opportunity to visit Kansas. Their preference is to pay 
through the fuel tax system as opposed to any new user fees 
that would be problematic and difficult for them to pay. That 
is the issue to which we're referring in the budget. We do plan 
to have the cost allocation study come out at the same time as 
the reauthorization proposal, which will help us see where 
costs are imposed on various industry segments of the system.

                    PROPOSED AVIATION FEE STRUCTURE

    Senator Brownback. And I would hope you would look at your 
current fee structure versus your new proposed fee structure. 
If the current one is producing more in revenues than a new 
one, that wouldn't seem to make much sense. If you're looking 
for FAA modernization and funds to be able to do the 
modernization, it doesn't seem like changing to a fee structure 
that produces less would be a wise move to go.
    Secretary Peters. Senator, one of the problems with the 
current system is that it is not dynamic and is not able to 
align costs to revenue based on system usage. Funding the Next 
Generation Air Transportation System will help us dynamically 
match the costs to system usage. But I absolutely understand 
your concerns about the general aviation community, and commit 
to you that we will look very closely at them.
    In terms of the numbers that are included in the budget 
about the difference between what the new system would collect 
versus the old system, I'll ask our Assistant Secretary to 
explain how that was calculated.
    Senator Brownback. Please. I would just note before she 
gets on and my time runs out, I have heard people talking about 
as much as a 40 percent increase in general aviation fuel tax. 
That's going to hit people when you increase at that level, and 
I really don't think that's meritorious to do. I think it's 
going to be very harmful.
    Ms. Scheinberg. Senator, I believe the numbers you're 
referring to are from a table in the President's budget. That 
table shows what revenues would be generated if the FAA user 
fees were in place in fiscal year 2008, which we're not 
planning to do until 2009, compared to the current system. 
There is a difference of about $600 million.
    What that says is that under our proposal, users will pay 
for what is needed in that fiscal year. The current system 
generates $600 million more than the budget requests for FAA in 
fiscal year 2008. This difference is one of the reasons we're 
proposing a new system that generates the amount we need rather 
than money that is in excess for the year. There could be years 
in the future when we would need more money, but right now 
we're collecting money that is not completely correlated to the 
amount that we need in the budget. That's what that table is 
trying to show.
    Senator Brownback. Thank you, Madam Secretary. Thank you, 
Madam Chairman.

                 OVERSIGHT AND CONTROL OVER FAA FUNDING

    Senator Murray. Thank you.
    Madam Secretary, let me continue on the issue of the FAA 
reauthorization. I know we're not going to see your proposal 
until next week, but there is one major issue that really 
concerns me and really should concern every member of this 
subcommittee, and that is whether or not you're going to 
propose taking funding control and oversight of the FAA away 
from this subcommittee. Some of the major airlines have 
proposed that funding for the FAA be converted from 
discretionary category to mandatory category, taking it out of 
the control and oversight of this appropriations subcommittee, 
and I wanted to ask you today if the FAA reauthorization 
proposal that you're going to present will convert any of the 
FAA's accounts to mandatory funding outside the appropriations 
process.
    Secretary Peters. Madam Chairman, no, they will not. Those 
accounts will not be mandatory, and of course they would be 
subject to annual appropriation.
    Senator Murray. Okay. Thank you very much. And even if your 
proposal finances the FAA through user fees, do you anticipate 
that this appropriations subcommittee will still set the annual 
disbursements of those funds for each program and project 
within the FAA?

                        FAA FINANCIAL MANAGEMENT

    Secretary Peters. Madam Chairman, yes.
    Senator Murray. Given the considerable problems we have had 
with FAA procurements that have come in late, have come in over 
budget, or deliver less than was originally promised, would you 
agree that the FAA's acquisition budget needs an annual review 
both by the Office of the Secretary and by this appropriations 
subcommittee?
    Secretary Peters. Madam Chairman, we know that there have 
been problems in the past, and that GAO has had some of these 
programs on its ``high risk'' list. We have made significant 
progress within FAA in improving the management of some of the 
major investments. For example, in 2006, 97 percent of the 
major capital projects, which account for 90 percent of the 
capital spending, were on schedule and within budget, and we're 
on track to meet that level this year as well. We understand 
that this has been a long-term issue, and if I may, the 
Assistant Secretary has more information on that topic.
    Ms. Scheinberg. As the Secretary mentioned, GAO has been 
looking at this for years, and they have come out with their 
most recent high-risk list. GAO reported that the FAA has done 
a number of things to improve its project management for 
capital improvements, and has given the FAA a complementary 
report. While this program is still on GAO's high-risk list, 
it's much improved according to GAO. We have spent a lot of 
time and effort inside the Office of the Secretary overseeing 
this program.
    Senator Murray. Well, as you reported, your Department, as 
you know, received a clean audit of its financial statements 
for each of the last 4 years until this year, and this year 
your auditor couldn't issue a clean audit because of 
significant accounting weaknesses at the FAA. And I understand 
that the central problem pertains to the FAA's inability to 
accurately account for the value of all of its properties.
    You stated that your authorization proposal is going to 
look at levying new user fees on the aviation industry based on 
the extent to which they use FAA services. So given that the 
FAA undermined the opportunity for a clean audit for the entire 
Department because of those accounting weaknesses, why are you 
now confident that the FAA can appropriately assess the true 
value of its services and charge user fees fairly for each of 
those services?
    Ms. Scheinberg. If I may, Madam Chairman, the issue with 
the audit had to do with past years' documentation of FAA's 
capital improvement projects. The problems are consistent with 
FAA's past problems because they are from previous years.
    The most recent years are much improved. Part of what this 
reflects is that FAA had major problems in past years. In 
current years, we have addressed the issues, but the accounting 
records go back. We need to clean up previous years as well. 
The weakness was documentation for equipment that we had 
purchased in previous years.
    As far as the cost accounting system and the cost 
allocation system, that has gone on separately, and FAA has led 
the way in the Department for being able to allocate its costs.
    Senator Murray. Well, they will be before this committee at 
some point here in the future, but it just seems to me with the 
basic accounting problems that they have, it wouldn't be 
appropriate to put their budget on automatic pilot through the 
authorization of mandatory funding. I assume you would agree 
with me on that.
    Secretary Peters. Madam Chairman, we are not doing that, 
and we would agree with you on that point.

                        PRIMARY SAFETY BELT LAWS

    Senator Murray. Thank you very much. Okay, with my minute 
left here I did want to go back to highway safety, just to 
follow up on that. I don't think that money is the answer to 
everything, obviously. None of us do. Senator Lautenberg here 
has been a champion of effective drunk driving action that has 
been mandated on the States, that has made considerable 
improvement.
    Your department has long supported the enactment of primary 
seat belt laws by our States, and those laws have been on the 
NTSB's most wanted list for a very long time, but even so, only 
half the States have enacted laws. Some of our States in fact 
have been debating this for a very, very long time. Do you 
think it is time for us to go the route of sanctioning the 
States if they don't enact primary seat belt laws?
    Secretary Peters. Madam Chairman, we prefer to use 
incentives and rewards for behavior that helps improve safety, 
as opposed to sanctions. I would point out how effective that 
has been with the seat belt laws, in terms of providing 
incentives for States that adopt those laws.
    Senator Murray. But have you personally traveled to any 
State to try and get them to enact their own laws?
    Secretary Peters. Yes, I have.
    Senator Murray. Has that worked?
    Secretary Peters. Right now 80 percent of the States have 
laws. And I would harken back to my own home State of Arizona, 
where as a State administrator I tried very hard to get them to 
adopt that law. Once the incentives were put in place they 
ultimately adopted it.
    Senator Murray. Well, I hope you and I can have this 
discussion as we go along, because it is disconcerting to me 
that only half the States yet, though the use of words, have 
used in that direction. And again, we're seeing high 
fatalities, so I think it's something we ought to take a look 
at.
    Secretary Peters. Madam Chairman, we recognize how 
important it is. In fact, I participated over the holiday 
period with a number of States on driving under the influence 
(DUI) task forces, and personally went out and spent the 
evening with them to try to tackle this drunk driving issue. We 
agree with you that it is very important.
    Senator Murray. And how about the seat belt laws?
    Secretary Peters. They're also enforcing the seat belt 
laws. Again, as you said, it's much easier to enforce a primary 
seat belt law, so an officer doesn't have to stop a motorist 
for another reason.
    Senator Murray. But only half the States have that----
    Secretary Peters. That is correct, Madam Chairman. I 
misspoke earlier. It's 80 percent seat belt use, but not all 
the States have primary seat belt laws.
    Senator Murray. Senator Bond.

                      HIGHWAY TRUST FUND REVENUES

    Senator Bond. Thank you, Madam Chair.
    Madam Secretary, we've been talking about CAFE and 
increasing the fuel mileage. I understand that hybrid cars have 
been having some impact on reducing fuel usage, and my staff 
who have hybrids are very pleased to be freed from the costs at 
the pump. But what are these reductions in fuel usage having in 
terms of an impact on the Highway Trust Fund? Do you have some 
ideas, some figures on that, and any suggestions about what if 
any remedies might be needed?
    Secretary Peters. Senator Bond, I think you're exactly 
right. We are seeing declining amounts of funding coming in 
from the gasoline taxes, or I should say a flatter portion of 
fuel taxes coming into the Highway Trust Fund. I think it's one 
of the reasons that we need to comprehensively evaluate this 
system.
    Sixty-five percent of the Highway Trust Fund revenues are 
related to gasoline and gasohol. We're seeing that the annual 
growth in the Highway Trust Fund revenues has slowed 
considerably over the last 5 years as compared to the previous 
decade. We're also seeing a slowdown in the vehicle-miles 
traveled, as well.
    These are all precursors, in our opinion, to a need to look 
comprehensively at the effect these things are having on 
funding and whether or not fuel taxes are an appropriate 
mechanism for the future.

                 CORPORATE AVERAGE FUEL ECONOMY (CAFE)

    Senator Bond. Well, I think that's appropriate to look at. 
Now, Madam Secretary, you and I know that there have been some 
very wonderful, exciting, bold proposals by those of us with 
all-knowing insight into vehicles, to propose corporate average 
fuel standards of 30, 40, 50 miles per gallon, and they are 
very ambitious. Do you have any views on why it makes sense for 
fuel economy standards to be set by DOT and NHTSA instead of 
having Congress legislate a particular numeric fuel economy 
increase?
    Secretary Peters. Senator Bond, I do. I think it's very 
important to have the opportunity to set those standards 
through a rulemaking process that considers the attributes of 
various models of vehicles that are in the fleet today. We also 
want to make sure that we look at the scientific data, the 
cost-benefit analysis, the impacts on safety, the impacts on 
the economy, and the impacts on jobs as part of setting those 
standards.
    Senator Bond. I hope you will, because Congress doesn't 
always look at them when it makes those wild proposals. And I 
would note that the automotive industry has been struggling for 
the past few years. We've had significant layoffs across the 
country, including my State of Missouri, and many stakeholder 
groups within the automotive industry, including the United 
Auto Workers, have expressed serious concerns about negative 
impacts that large CAFE increases might have on automotive 
jobs.
    I assume from your previous answer that the administration 
will be considering the negative impacts that CAFE standards 
have on U.S. automotive jobs. The current standards for 
vehicles as opposed to light trucks, sport utility vehicles 
(SUVs), might have that impact. Does the administration support 
a more targeted fuel standard based on the size of vehicles, so 
we won't disadvantage the U.S. auto industry?
    Secretary Peters. Senator Bond, we believe that we should 
use an attribute-based system which takes into account 
different vehicles that are in the fleet in establishing these 
standards. The President has laid out a very ambitious goal to 
attempt to save 8.5 billion gallons of fuel by 2015, but we 
also believe that we need to set these standards based on 
different sizes of vehicles that are in the fleet. Some 
families can't always use a small sedan, and so we have to take 
that into account as well, and not to have a disproportionate 
impact on any industry segment in the process.

                   FUNDING FOR CONGESTION MITIGATION

    Senator Bond. Thank you. I think that's very important.
    As I mentioned in my statement, we know that congestion is 
a major problem, and we've had some very innovative suggestions 
from my colleague from Utah. I will look forward to hearing 
more from him. But I want to see some more flesh on your 
congestion mitigation skeleton. Have you looked at alternative 
funding for this congestion program?
    Secretary Peters. Senator Bond, yes, we have. The SAFETEA-
LU legislation that was enacted in 2005 provides opportunities 
for private activity bonds, which have been very helpful in 
attracting private sector investment to transportation 
infrastructure, and also by giving States the opportunity to 
use public-private partnerships more broadly than they did in 
the past.
    I had a conversation with Ric Williamson, who is the chair 
of the Texas Transportation Commission, just this week. He 
related to me how these provisions have substantially helped 
them attract additional funding for transportation. But those 
should not be the only methods that we're using, Senator. We 
need to look more broadly at available revenues for 
transportation and what the impacts of those various revenue 
sources would be.
    Senator Bond. Well, my former colleague was a very strong 
supporter of private activity bonds. We'll look forward to your 
proposals. Thank you.
    Secretary Peters. Thank you.
    Senator Murray. Senator Lautenberg.

                  INTERCITY PASSENGER RAIL AND TRANSIT

    Senator Lautenberg. Thanks, Madam Chairman.
    To my friend from Utah, for whom I have a great deal of 
respect, he has had a lot of experience with Government and 
he's a thoughtful fellow, and he was one of the 93 who voted 
for the bill in effect when it was presented. That was a good 
vote. Only six people were so conservative that they couldn't 
support it. So I thank you.
    Now, in terms of your experience, Senator, you may bring 
bad luck, because the average wait time, on-time performance on 
Acela is 90 percent, other Northeast trains, 85 percent, all 
airlines is 75 percent. So I don't think I want to travel on 
the train with you.
    Senator Bond. Senator, you probably don't want to travel on 
a plane with me, either.
    Senator Lautenberg. I know Utah fairly well. Cottonwood 
Canyon has been a favorite place of mine in the Wasach 
Mountains. I love them dearly and I've been up and down them a 
lot of times.
    And for our colleague from Missouri, my first training in 
the military was digging foxholes in the Ozarks, and I will 
tell you it's not possible, and I've seen a lot of muscle used.
    I have fond memories of that State, and that's why I was 
pleased to see that the mule train is getting reinstated, and 
that there is service that could be employed between Chicago 
and St. Louis and other cities across the country. St. Louis to 
Kansas City would also be a good one.
    In all seriousness, when we look at this energy savings, a 
passenger on Amtrak uses 2,900 Btu's per passenger mile. 
Automobiles, it's 3,500, and airlines, it's also 3,500. So the 
savings would be enormous. And I would tell you, in a very 
serious moment, I look at what happened when the Trade Centers 
went down, and railroad was the only thing operating. The 
aviation system came to a total halt. The highways were jammed. 
A country like ours ought to have a more reliable, robust rail 
system, and one of the things that we have to look at is what 
the energy savings might be.
    But I think in terms of security of this country, and I 
remember the problems with two nuclear energy plants, one built 
in Long Island and one built in New Hampshire, and the 
principal problem with one of them, total abandonment of 
billions of dollars of construction because they couldn't offer 
a decent evacuation system to get people out of there in the 
event of a problem. So I think we have to look at the system.
    And I am told, Senator Bennett, that if the train which 
passed through Salt Lake wasn't at 3 a.m. in the morning, maybe 
the traffic and service would be better. And for long-distance 
trains, the biggest problem for them is that they are often 
stuck behind freight railroads. That's tough, and they just 
can't command it.
    So I have heard many cases made for projects, but you made 
a case for capital investment in railroads such as I have never 
heard, and that is if we could be a kind of Brussels to Paris 
kind of thing, 200 miles in an hour and 20 minutes. I was in 
the cab of the engine there, and the cows were flying by. It 
was really quite an experience.
    Could you just imagine, if we could make the investment 
that we have to in Amtrak and long-distance rail, how many 
places could be improved in terms of their transportation? 
Washington State, Portland, for instance, making good use of 
rail service. Oklahoma City to Dallas, Texas would be an 
excellent corridor. So many places.
    And I would ask, Madam Secretary, passenger rail I think 
clearly holds promise for not just getting cars off the roads 
but also reduction of our Nation's reliance on foreign oil. It 
was mentioned how much is lost as a result of congestion and 
delay. Does the administration see rail as an important 
mechanism to promote energy efficiency, reducing that reliance 
on foreign oil?
    Secretary Peters. Senator Lautenberg, I see your chart, and 
it certainly makes a compelling argument about the use of oil 
and the different modes of transportation.
    Senator Lautenberg. Well, then, why aren't we getting more 
money for improving passenger rail service? You know, in Penn 
Station in New York the train traffic is equivalent to a 747 
that leaves every 30 seconds. We see what happens now. They 
recently repaired and renovated a rail line from Philadelphia, 
Pennsylvania to Harrisburg, and the ridership went up 30 
percent. That's what we're seeing. Wherever new rail systems 
are in there, transit systems, people take them out of 
necessity, to get out of the traffic and have more reliable 
arrivals when they have to go someplace.
    And, you know, I see 3 weeks after the President's State of 
the Union address he proposed cutting funding for transit 
projects by over $300 million from the congressionally 
authorized level. Now, in light of the President's environment 
and energy goals set forth in his speech, how do we justify 
these cuts for transit?
    Secretary Peters. Senator, we had some very difficult 
decisions to make in putting the President's budget together. 
We have been asked to keep non-defense discretionary spending 
down to 1 percent growth. We have actually allocated more than 
that to transit and highway programs, but we faced overall 
limitations, sir. Again, we are not leaving any transit project 
that is ready for funding on the table. All of those projects 
are funded.
    Senator Lautenberg. Return on the dollar is the fact that 
it's got to be in consideration. Thanks very much. Thanks, 
everybody, for your tolerance during my reintroduction to the 
Transportation subcommittee.
    Senator Murray. It's great to have you back.
    Senator Bennett.

                   MASS TRANSIT AND CONGESTION RELIEF

    Senator Bennett. Thank you very much, Madam Chairman. I 
will be more succinct this time. I apologize for getting 
carried away before. I do remember learning in the department 
that in order to have mass transit make sense, you have to have 
a mass that needs to be transited.
    There are those of us, you have a transit program, you talk 
about that as being funded, Salt Lake to Ogden, in my State, 
I'll defend that as vigorously as the Senator from New Jersey 
will defend Amtrak on the Northeast corridor because there is a 
mass that needs to be transited. But the mass that needs to be 
transited over the long distances of the West, to me it still 
don't make that much sense, but we'll have that debate later 
on.
    Let me go back to, you're talking about congestion relief 
and the use of technology to get there. I simply want to call 
your attention to an example that you're probably familiar with 
but may not be, and that is the experience that we had in Salt 
Lake City in the 2002 Olympics. I learned, being connected to a 
State that put on the Olympics, that the biggest challenge of 
putting on a successful Olympics is transportation. That was 
the problem in Atlanta. That was a huge problem in Athens. And 
it was a problem that got solved extremely well in Salt Lake 
City.
    A lot of folks don't realize, we had buses literally from 
all over the country, and I was in Salt Lake City and I would 
see these strange buses on the street and think that was kind 
of interesting, until I finally saw a bus that was a home town 
bus that I felt comfortable with and then did a double-take. It 
was a D.C. bus, not a Utah bus.
    The thing that made it work was the electronic gizmos that 
I think you're talking about here. Every bus driver could be 
contacted from a central facility and told, ``Avoid this 
intersection. You can get to where you want to go if you go two 
streets left. This is where we are.'' And the whole thing 
worked seamlessly by virtue of that kind of technology 
available.
    One of the key parts that made it work was the training. 
And when we got buses imported from these various cities, we 
also had the drivers imported, who were properly trained so 
that they knew the vocabulary that was coming at them either 
electronically in the form of a GPS system or by voice in the 
form of a dispatcher. They instantly knew what to do.
    And as you look at this whole question of congestion 
relief, don't just look at the technology but look at the 
training that has to go in it. Again, I'm willing to be one who 
will spend dollars for this kind of thing because of the value 
added that comes. People complain about an extra 2 or 3 cents 
on the gas tax, and then they don't realize that that 2 or 3 
cents on the gas tax is going into the trust fund that could 
produce the technological changes that could reduce congestion. 
They will get that 2 or 3 cents back in huge multiples, being 
at their office on time, being at their appointments on time, 
getting their goods on time.
    I'm glad that the overall statistics for Amtrak indicate 
that my personal experiences are not typical, but if we could 
say the value added of increasing the reliability and the speed 
of ground transportation in these areas can justify the 
additional taxes in other areas that get shared, we can make a 
case that people can be comfortable with.
    The light is still green and I'm through, Madam Chairman. I 
want the record to reflect that.
    Senator Murray. I am impressed.
    Senator Bennett. I would ask to put in for the record the 
name of the great, far-sighted CEO of the Salt Lake Olympics 
that implemented such a success, but I shall refrain from that 
because he's going to make an announcement within the next few 
days that might cause people to think this was a political 
advertisement.

                              RAIL SAFETY

    Senator Murray. I thank you for refraining.
    I have a few more questions for you, Madam Secretary, and 
then I'll turn it over to Senator Bond.
    In drafting the joint funding resolution for 2007, our 
committee added $5 million above the freeze level for the 
Federal Railroad Administration's safety office, to get funding 
closer to the Bush administration request. Our goal really was 
to make sure that you can keep railroad inspectors and safety 
personnel on the job and enforce safety rules.
    I see that your budget would cut this account by almost $3 
million in comparison to the joint funding resolution, and in 
fact it would be a cut of about $4 million below the level that 
you requested for 2007. You announced that cut, in fact, on the 
day a train carrying hazardous materials was derailed in West 
Virginia, and less than 1 month ago another train carrying 
hazardous materials derailed in Kentucky, setting chemicals on 
fire and sending a lot of people to the hospital. Do you think 
this is the time to cut funding for your Department's rail 
safety activity?
    Secretary Peters. Senator Murray, I certainly share your 
concerns, and have talked with our Federal Railroad 
Administrator about rail safety on numerous occasions. Our 
fiscal year 2007 and 2008 budgets both assume the same staffing 
level of 449 inspectors, as well as adequate resources for 
these inspectors. We have applied cost savings to travel 
funding, not for the inspectors themselves but other travel 
funding. We have also targeted gap deficiencies within our 
inspector work force.
    Senator Murray. Well, even according to your own budget 
documents, your request is going to force the FRA to delay 
filling some of their vacancies for 6 months and hire less 
qualified candidates for safety inspections. Doesn't that 
concern you?
    Secretary Peters. Madam Chairman, that certainly would 
concern me if that were the case. My understanding is that FRA 
has offered targeted buyouts to positions where we have 
specific gap deficiencies. But if I may, I will ask the 
Assistant Secretary to speak specifically to the budget items.
    Senator Murray. Okay, but I will refer you to your own 
budget, where you say that the FRA proposes to not backfill 
vacancies for up to 6 months to achieve some of those cuts.
    Ms. Scheinberg. I believe the vacancies that they would 
delay backfilling are less critical vacancies, not the 
inspectors.
    Senator Murray. You assume that?
    Ms. Scheinberg. Yes.
    Secretary Peters. Madam Chairman, if we may, I would like 
to get back to you on the record on that point, because I do 
believe you make a very valid point.
    [The information follows:]

    FRA has offered early retirement to approximately 30 employees in a 
variety of positions. Early retirements were not offered to any of our 
critical field safety positions, such as our inspector workforce. Six 
early retirements were offered to Headquarters safety specialists, who 
did not have the most effective skill sets FRA needs to face the 
challenges of the future. The FRA buyout plan was developed after 
performing a detailed workforce analysis that identified skill gaps in 
a variety of positions. Some positions to which early retirement offers 
were made include Supervisory Industry Economists, Program Analysts, 
Administrative Officers, Administrative Assistants, Railroad Safety 
Project Coordinators, Industrial Hygienists, and IT Specialists. 
Employees who accepted these offers will retire in fiscal year 2007, 
and be replaced in either fiscal year 2007 or fiscal year 2008, 
depending on their separation date. In many cases, FRA is proposing to 
replace these employees at a lower grade than the separating employee, 
which will result in cost savings.
    The FRA is also proposing to not backfill selected non-critical 
safety positions for periods of up to six months during fiscal year 
2008 in order to achieve cost savings. This proposal will not postpone 
or delay hiring for our inspector workforce, or any other safety-
critical positions.
    Finally, the fiscal year 2008 budget proposes filling selected 
inspector positions at the GS-5 and GS-7 levels, consistent with our 
Inspector Trainee program approved by Congress in the fiscal year 2005 
budget, which will allow us to continue to groom a diverse and robust 
inspector workforce. As explained in our fiscal year 2005 budget 
request, the ``trainees'' at this lower grade level represent fewer 
than 5 percent of our inspector workforce at any given time. 
Additionally, ``trainees'' are partnered with senior level inspectors 
to assure that inexperienced inspectors are not assigned to work 
independently until they possess the knowledge and skills necessary to 
fulfill their safety role independently.

                FUTURE FUNDING OF THE HIGHWAY TRUST FUND

    Senator Murray. I would appreciate that very much. That is 
very disconcerting.
    Let me end by asking you about the Highway Trust Fund, a 
critical issue. Although your budget request pretty much 
follows the levels authorized, you have deviated from SAFETEA-
LU by requesting about $630 million less than the full amount 
that's authorized. Even at those levels, it appears that your 
proposal will spend down the entire balance in the highway 
account of the Highway Trust Fund by the end of 2009.
    I am one of those who is very interested in making sure we 
have highway and highway safety programs. They are very 
critical. But I am also very worried about putting the trust 
fund into bankruptcy, and I wanted to ask you what concrete 
proposals there are in your budget to refinance the Highway 
Trust Fund so we keep it out of bankruptcy.
    Secretary Peters. Madam Chairman, as I indicated, we took 
several steps to protect the solvency of the Highway Trust Fund 
through fiscal year 2009. I absolutely agree with you that we 
need to begin to discuss how we prevent the highway account 
from going into deficit, and I look forward to working with you 
to bring forward proposals toward that end. Also, as I 
mentioned, the commission is working very hard on those issues, 
and--
    Senator Murray. When do we expect to see them?
    Secretary Peters. The commission's report, ma'am, will be 
available at the end of December of this year. I'm assuming 
that the technical corrections bill goes through. But I hope to 
bring proposals to you even sooner than that.
    Senator Murray. Well, I would hope so, because this is a 
looming crisis and we cannot delay a decision on this. The 
President's budget wasn't bashful in providing us with concrete 
proposals about extending that budget cut, so I would assume 
they should not be bashful about proposing how we handle major 
crises that are facing us like this, as well. So I hope that we 
can see something sooner than that.
    Secretary Peters. I understand, Senator.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Murray. At this point I see no other Senators 
present. Madam Secretary, I thank you for your testimony today. 
I look forward to working with you.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
              Questions Submitted by Senator Patty Murray

                                 AMTRAK

    Question. Madam Secretary, you are a Member of Amtrak's Board of 
Directors. Your budget is requesting $900 million for AMTRAK--the same 
amount you requested in 2007. That amount is 30 percent less than the 
level the railroad received in 2006.
    When you look into the details of your request, you're proposing to 
use $100 million of this $900 million for new matching grants to States 
to improve passenger rail infrastructure. So in terms of dollars that 
are immediately available to AMTRAK, your budget represents a cut of 
almost $500 million or 38 percent. By anyone's account, whether it be 
AMTRAK's management or the DOT Inspector General, a cut of that size 
would surely put AMTRAK into bankruptcy.
    What is the point in requesting $100 million in matching grants to 
States for improved passenger rail service if the national provider of 
passenger rail service is bankrupt?
    Answer. Over the last 30 years, the real growth in intercity 
passenger rail service has been in those corridors where States, such 
as Washington, have taken the lead in planning, designing and funding 
the service. This has happened despite the lack of the traditional 
Federal/State funding partnership for intercity passenger rail. The 
administration seeks to create that partnership in part because of the 
administration's belief that the States, and not Amtrak based in 
Washington, DC are most knowledgeable of their own mobility needs.
    Question. Your budget explains that the $100 million you have 
requested for these State grants is supposed to help the States to 
enter into partnerships to improve and expand intercity passenger rail 
service.
    Who are the States supposed to partner with to improve passenger 
rail service if AMTRAK is allowed to go under?
    Answer. Commuter rail operations across the country have 
demonstrated that there is a robust competitive market place for 
passenger rail operators--both passenger specific operators and, in 
some cases, established freight railroads. The administration would 
like to see the States receive similar benefits from a competitive 
marketplace for operators of intercity passenger rail service, a 
marketplace that would include an efficient and competitive Amtrak.

                           CONGESTION RELIEF

    Question. Madam Secretary, as you know, the 2007 Joint Funding 
Resolution includes no earmarks for the discretionary accounts within 
DOT. That means that, unlike in recent years, you will be awarding some 
$2.7 billion in highway and transit funds through a nationally 
competitive process.
    Given your agency's new focus on alleviating congestion, which I 
commend, will you be using the funds that have been provided in 2007 to 
target dollars on applications that alleviate congestion?
    Answer. In March 2007, shortly after the enactment of the fiscal 
year 2007 Continuing Appropriations Resolution (Public Law 110-5), the 
Federal Highway Administration (FHWA) and the Federal Transit 
Administration (FTA) published Notices of Funding Availability in the 
Federal Register, where FHWA invited States to apply for grants to fund 
projects that address statutory goals and provide significant highway 
safety and congestion relief benefits, and FTA, through its 
``Congestion Bus Notice,'' invited applications for funding under the 
section 5309 Bus Program for projects that support the objectives of 
the National Strategy to Reduce Congestion on America's Transportation 
Network (``Congestion Initiative'').
    In line with the Department's goals to save lives and reduce 
traffic delays on highways, FHWA is making available a total of $329 
million in grant funds in an effort to target resources strategically 
across eight discretionary programs to improve safety and relieve 
congestion: Ferry Boat; Innovative Bridge Research and Deployment; 
Interstate Maintenance; Public Lands Highway; Highways for Life; 
Transportation Community and System Preservation; Truck Parking 
Facilities; and Delta Region Transportation Development Program. An 
electronic copy of the March 22 Notice is available at http://
frwebgate.access.gpo.gov/cgi-bin/
getdoc.cgi?dbname=2007_register&docid=fr22mr07-117.pdf.
    FTA will reserve a significant portion of the funds not 
``earmarked'' by law and otherwise available in fiscal year 2007 under 
the section 5309 Bus Program for projects selected in accordance with 
the Congestion Bus Notice of March 23rd. By separate notice published 
in the Federal Register, FTA solicited proposals for use of those funds 
not distributed pursuant to the Congestion Bus Notice and not earmarked 
by law to support other critical investment needs in both rural and 
urban areas.
    Question. Will such applications be getting additional points or 
priority consideration as you award these funds for the current fiscal 
year?
    Answer. FHWA has solicited applications and published Notices to 
assure competition for the discretionary grants and to enhance 
transparent and merit-based determinations to achieve program 
objectives, consistent with the purpose of the statute and 
administration policy. FHWA will award funding in accordance with the 
statutory criteria for each of the discretionary programs and will 
weigh the safety and congestion reduction benefits associated with 
individual applications. As indicated in the FHWA Federal Register 
Notice, those projects that meet the statutory requirements and make 
significant impacts to safety and to reducing congestion will be given 
priority consideration. Applications for fiscal year 2007 funding 
should describe how the project, activity, or improvement relieves 
congestion in an urban area or along a major transportation corridor, 
employs operational and/or addresses major freight bottlenecks.
    On the transit side, to be eligible for funding pursuant to the 
Congestion Bus Notice, an applicant (a) must be located within a 
Metropolitan Statistical Area or Consolidated Metropolitan Statistical 
Area, as defined by the U.S. Census Bureau, which has (1) a travel-time 
index of 1.25 or greater, as reported by the Texas Transportation 
Institute (``TTI'') in its 2005 Annual Urban Mobility Report; or (2) an 
annual congestion cost per traveler of $600 or greater, as reported by 
TTI in its 2005 Urban Mobility Report; or (3) a number of hours of 
congestion per day of 7 hours or greater, as reported by TTI in its 
2005 Urban Mobility Report; and (b) the applicant proposes to use the 
funds applied for to improve existing transit service or to provide new 
transit service in a corridor or area that is part of a congestion 
reduction demonstration. Priority for funding will be given to those 
applicants that have also been selected as Preliminary Urban Partners 
through the Department's Congestion Initiative. FTA is currently 
reviewing all the applications and expects to award a significant 
portion of the available discretionary funding to targeted bus projects 
in support of the urban partnership initiative while still funding many 
meritorious projects that address bus replacement, fleet expansion, and 
facility needs in other areas.

                           MOTORCYCLE SAFETY

    Question. Madam Secretary, as you know, there was a 13 percent 
increase in motorcycle fatalities in 2005, representing the eighth 
consecutive year that there has been a rise in motorcycle fatalities. 
Moreover, motorcycle fatalities have increased an alarming 115 percent 
since 1997. Simply put, the current approach to reducing the number of 
motorcycle fatalities isn't working.
    The Department's budget for fiscal year 2008 does propose an 
increase in funding for motorcycle safety activities, and in your 
statement you indicate that the Department is targeting this problem 
area.
    But what specific new approaches is the Department going to take in 
order to start moving those numbers in the right direction, so that we 
see fewer motorcyclists die on our Nation's highways?
    Answer. The rise of motorcycle fatalities continues to be a great 
concern to me and the Department. I am an avid rider, and I know the 
problem is multi-faceted and there is not one single silver bullet to 
solve the problem. The Department is looking at a comprehensive 
approach to motorcycle fatalities, which will include reducing the 
number of alcohol-impaired riders, decreasing the number of unlicensed 
riders and encouraging all riders to wear DOT-approved helmets.
    To address the problem of alcohol-impaired riders, the Department 
will initiate a demonstration project implementing heightened law 
enforcement and communication programs to test their effectiveness in 
reducing alcohol-related motorcycle crashes. Impaired riding messages 
will also be incorporated into the impaired driving crackdown over the 
Labor Day holiday.
    We will continue to work with State licensing agencies to implement 
programs that identify motorcycle owners that are not legally licensed 
to operate the vehicle, notify them of the licensing requirement, and 
assist them in obtaining the proper license. The Department will also 
continue to hold quarterly meetings with representatives of national 
motorcycle safety organizations to coordinate efforts to improve 
motorcycle safety.
    In addition, we continue to encourage all riders to use DOT-
certified helmets. Our efforts to promote helmet use include print and 
web-based consumer information materials, public service announcements, 
and articles in magazines and other publications. I recently challenged 
motorcycle manufacturers to help address rising motorcycle fatalities 
by providing free or discounted DOT-certified helmets with all new 
motorcycles purchased and ensure rider training is available for all 
their customers.
    The Department will continue to implement the motorcycle safety 
programs specified in SAFETEA-LU. The Motorcyclists Safety Grant 
program will award $6 million in fiscal year 2008 to States to use to 
support rider training and motorists' awareness programs. The Federal 
Highway Administration will continue to host meetings of the 
Motorcyclists Advisory Council to improve motorcycle safety through 
infrastructure design and maintenance and sponsor the motorcycle crash 
causation research study.
                                 ______
                                 
             Questions Submitted by Senator Byron L. Dorgan

                                 AMTRAK

    Question. Secretary Peters, I appreciate your offer to come to 
North Dakota and ride the Empire Builder. The Empire Builder is one of 
Amtrak's most successful long distance trains, recently reporting an 
increase in ridership in 2006 of 4.3 percent. And I appreciate the 
comments that you made during your confirmation hearing before the 
Senate Commerce Committee when you said that you agreed that we need a 
national passenger rail system.
    However, the administration continually shows its lack of 
commitment to the success of Amtrak, and in fact ignores Congress' 
stated will to keep Amtrak going. Each year the President seeks 
insufficient funding for Amtrak, and the Congress has to act to restore 
the funding.
    Can you explain to me why we must have this routine year after 
year?
    Answer. Amtrak is based upon a flawed business model that works 
against achieving the administration's goal that the limited amount of 
discretionary funds available for transportation be expended in a cost-
effective manner that meets important mobility needs of this country. 
As an example, the administration sees no compelling public purpose in 
funding subsidies of food, beverage and first class service. In each of 
the last two Congresses, the administration submitted legislation, the 
Passenger Rail Investment Reform Act, which would address the 
fundamental problems with how this Nation provides intercity passenger 
rail service. If that bill or something similar were to be enacted, we 
would break the annual routine that you mention.
    Question. It is clear that Amtrak cannot survive on the $800 
million requested by the administration. What is the sense in asking 
for a budget that is so insufficient?
    Answer. It is true that Amtrak as presently configured and operated 
cannot operate on $800 million. That is the point. There are embedded 
inefficiencies in Amtrak's operation and items subsidized by the 
Federal Government that serve no compelling public purpose, such as its 
food and beverage service that consumed over 10 percent of Amtrak's 
total Federal subsidy in fiscal year 2006. The administration is 
unwilling to pay for inefficiency and activities not essential to basic 
transportation. The funding request puts management on notice that it 
must address these issues.

                                AVIATION

    Question. Recently the Senate Commerce Committee held a hearing on 
airline mergers, and one topic that arose was whether some additional 
Government intervention was necessary for maintaining or improving air 
service to rural communities.
    Do you believe the current system is working to sufficiently 
maintain service to rural communities?
    Answer. The Essential Air Service (EAS) program was designed when 
airline rates, routes, and services were regulated as means of 
providing temporary support to some communities during the transition 
of the industry to a deregulated structure. Although the program was 
eventually made permanent, it has remained fundamentally unchanged 
since its inception. That is one reason the administration has proposed 
reforms over the last several years. We believe that the program needs 
to be targeted to serve the needs of the most truly isolated 
communities across the country, and the administration's plan offers 
specific proposals to accomplish that objective.
    Question. With the administration's budget requests consistently 
cutting the Essential Air Services Program, is there another solution 
that you believe is preferable to achieve rural air service?
    Answer. It is clear that the EAS program must be reformed or the 
costs will continue to escalate. As more and more regional carriers 
upsize their fleets to larger turboprops or even regional jets, it will 
leave more and more communities reliant upon subsidized EAS. In 
addition, as the spread of low-fare carriers continues, more local 
communities will be unable to support their local airport's service as 
travelers will drive to nearby, low-fare jet service. EAS service of 
two or three round trips a day cannot compete with low-fare jet 
service, and more and more communities are falling into this situation. 
The administration's budget request is wholly consistent with the 
notion that the most isolated communities should continue to receive 
subsidized EAS in order to keep them connected to the national air 
transportation system.

           NATIONWIDE DIFFERENTIAL GLOBAL POSITIONING SYSTEM

    Question. Madame Secretary, in your testimony you spoke about the 
Department's goal of reducing traffic fatalities and congestion. These 
are important goals and I support the Department in its efforts. One of 
the tools to help address these problems is the Nationwide Differential 
Global Positioning System (NDGPS). This nationwide system provides 
accurate positioning and location information to travelers, emergency 
response units, and other customers. North Dakota invested $300,000 to 
convert a former Air Force Ground Wave Emergency Network (GWEN) station 
at Medora, ND into a NDGPS site. Another conversion is planned for a 
former GWEN site in Edinburg. In North Dakota, the system is used for 
land surveying, precision farming, utility locations, archeology 
locations, and emergency operations. In one example, a single North 
Dakota Department of Transportation official completed land surveying 
work for a highway project in 4 days using NDGPS that would have taken 
four officials 2 weeks to complete without the system.
    Some of the most exciting NDGPS uses deal with traffic congestion 
and accident prevention. Applications are being developed to provide 
drivers with information they can use to more safety navigate roads. In 
my State, NDDOT officials are researching the use of NDGPS on snowplows 
to prevent future accidents. New investment is needed to expand the 
system and to improve the stations from single to dual coverage. The 
administration moved the funding responsibility of NDGPS from the 
Federal Railroad Administration to DOT's Research and Innovative 
Technology Administration (RITA). The fiscal year 2008 budget proposes 
$5 million to ``operate and maintain'' NDGPS.
    Question. What role does NDGPS play in DOT's goal of reducing 
traffic fatalities and congestion, especially in your Intelligent 
Transportation Systems initiative?
    Answer. NDGPS is one of several enabling positioning, navigation 
and timing (PNT) services that may play a significant role in providing 
21st Century solutions for 21st Century transportation problems. We 
hope that advanced PNT services will enable us to develop and deploy 
technologies that will increase safety and reduce systemic congestion 
across all modes of transportation.
    NDGPS is one potential PNT infrastructure solution for Intelligent 
Transportation Systems (ITS) projects. ITS research has identified some 
future safety and mobility enhancing applications that would require 
PNT performance capabilities that NDGPS currently offers. Other, more 
advanced ITS applications may require additional infrastructure and 
performance upgrades to the current NDGPS system. However, ITS research 
is still on-going to determine how to best achieve the required PNT 
performance capabilities for ITS applications.
    Question. Is DOT committed to expanding and improving the system? 
If so, is DOT planning budget increases for the system?
    Answer. The Department decided to manage fiscal year 2008 inland 
NDGPS operations and maintenance expenses at a low level to preserve 
the Government investment in the system, while RITA completes a systems 
analysis and assessment of current and potential future NDGPS 
requirements for transportation and other applications. NDGPS user 
needs will be evaluated in conjunction with the National PNT 
Architecture effort to determine to what extent the NDGPS 
infrastructure can meet user needs as part of a national PNT 
architecture, before any decision on the future maintenance, operation 
or enhancement of NDGPS is made.
    The assessment is identifying other Federal and non-Federal users 
of inland NDGPS that could fund its completion and operation. The 
assessment may also point to another funding source for future 
maintenance, operation or enhancement of NDGPS, or to shared 
sponsorship. The Department has stated that if no transportation or 
other Federal user requirements are identified as a result of the needs 
assessment, DOT would plan to end support for NDGPS. If the assessment 
determines there are non-Federal users, DOT would work to develop a 
transition plan for non-Federal sponsors.
    The fiscal year 2008 budget request for NDGPS allows for continued 
operations and maintenance of the partially-deployed inland NDGPS 
segment, with no system build-out or enhancements. This request 
provides funding for DOT to continue protecting the Government assets, 
and to initiate action on the future course of inland NDGPS. The 
planned fiscal year 2008 decision could result in: continuing inland 
NDGPS system operations and maintenance; transferring sponsorship of 
inland NDGPS to another sponsor or set of sponsors; or other options 
that may be determined following the completion of the assessment.
    Question. When will dual NDGPS coverage be completed in the United 
States?
    Answer. Completion of dual NDGPS coverage depends upon the results 
of the needs assessment, and on funding decisions made by all NDGPS 
partners as a result of the assessment. At this time, approximately 92 
percent of the area of the lower 48 States (CONUS) has single coverage, 
and 65 percent has dual NDGPS coverage.
    Question. What are your plans for adding the Edinburg site into the 
system?
    Answer. The Department recognizes the strong interest that North 
Dakota has had in NDGPS, providing funding for the Medora site, and the 
State's strong desire to add the Edinburg site to complete dual NDGPS 
coverage in North Dakota. However, we do not wish to add any additional 
NDGPS sites until the needs assessment is complete, and the long-term 
future of NDGPS funding and sponsorship are resolved.

                            CAPTIVE SHIPPERS

    Question. During your confirmation hearing, you heard about the 
concerns that many rail customers have about problems with a lack of 
rail competition. Many of the rail customers in my State are served by 
a single railroad. They pay exorbitant rates and receive inferior 
service. A report by the Government Accountability Office has verified 
those concerns, concluding that: (1) captive shippers pay rates that 
are three, four or even fives times as high as those of shippers with 
competitive choices, (2) the STB's rate relief processes are largely 
inaccessible and rarely used, and (3) the STB does not fully use its 
existing statutory authority to address competition issues or ensure 
reliable deliveries.
    Do you agree that the STB has existing authority to create a more 
robust and effective rate relief process? And if you agree, what steps 
do you intend to take to prompt the STB to use that authority?
    Answer. The Department agrees that the Surface Transportation Board 
(STB) has authority to adopt an effective rate relief process. In an 
ongoing rulemaking proceeding, the STB has proposed simplified, less 
costly procedures for assessing rate reasonableness in cases brought 
before it, and sought comments from stakeholders on those procedures. 
The Department has recognized this effort and submitted its views on 
the new procedures proposed.
    Question. The GAO has reported that it would be helpful for a 
Federal agency to evaluate where areas of inadequate rail competition 
exist, and where an inappropriate exercise of a railroad's market power 
might force shippers to pay inappropriately high rates. Do you agree? 
Will the Department undertake such an investigation?
    Answer. Such a study would have limited usefulness, because the 
absence of substantial rail-on-rail competition in an area is not, in 
itself, a good indication that rail competition should be introduced. 
The structure of the rail system has developed in response to varying 
levels of demand across areas and the particular economies of density 
that characterize the rail industry. As a result, some areas of low 
traffic density cannot support more than a single railroad. We do 
recognize, however, that the potential for exercise of market power in 
certain areas can lead to rate levels for which rate regulation may be 
appropriate.
    Question. According to the GAO, each rate case filed with the STB 
takes an average of 3.5 years to complete, and costs approximately $3 
million. Do you think this is an appropriate amount of time and money 
for a shipper to spend on a rate case?
    Answer. The Department has called for simplified, less costly 
procedures for adjudicating rate cases, particularly for small 
shippers. However, as the record going back to the mid-1990s of 
attempts by STB to simplify the process for small shippers has shown, 
it is not an easy determination. For example, there are trade-offs 
between simplifying the process and accurately assessing an appropriate 
rate level that is fair to both the shipper and the railroad. We 
believe progress is being made on this task, as noted above, with the 
STB's current rulemaking proceeding to simplify the process and reduce 
the cost.
    Question. Has the Department conducted any analysis on the ability 
or limitations of the rail system to deliver either feedstock or 
refined ethanol to market, or the impact of unreasonable rail rates on 
the cost of these critical domestic fuel supplies? If not, will you 
conduct such an analysis?
    Answer. We are monitoring developments in the booming ethanol 
industry closely and have discussed the issue of alternative energy 
distribution broadly with the Department of Energy, Department of 
Agriculture and the Federal Energy Regulatory Commission. We would like 
to explore the potential implications of the specialized transport and 
distribution requirements of ethanol further. Two critical needs are 
the development of a pipeline infrastructure capable of carrying 
alternative energy products and the development of unloading terminals 
in destination markets, particularly to handle ethanol unit trains. 
Another is the availability of rail tank cars to serve the industry. If 
ethanol production continues on its present growth trend, and if rail 
continues to be the dominant mode to move it, there could be a demand 
for as many as 480,000 tank car loadings by 2010. Some reports put the 
backlog at almost 4 years for delivery of new cars.
    Regarding rail rates for ethanol, we have no indication they are 
unreasonable. Ethanol is a hazardous material, and we would expect 
rates would be set high enough to cover the railroads' liability in the 
event of an accident and ethanol spill. Additionally, as with any 
commodity, rates must offer enough return to justify continued 
investment. The regulatory processes of the STB are available if a 
shipper decides to challenge an individual rate.
                                 ______
                                 
           Questions Submitted by Senator Frank R. Lautenberg

                                 AMTRAK

    Question. President Bush appointed you to the Board of Directors of 
Amtrak, America's National Passenger Railroad. The company's last 
projection for fiscal year 2008 calls for almost $1.7 billion in 
Federal funding. So why has the President only requested less than half 
of that--$800 million--for Amtrak?
    Answer. There are embedded inefficiencies in Amtrak's operation and 
items subsidized by the Federal Government that serve no compelling 
public purpose such as its food and beverage service that consumed over 
10 percent of Amtrak's total Federal subsidy in fiscal year 2006. The 
administration is unwilling to pay for inefficiency and activities not 
essential to basic transportation. The funding request puts management 
on notice that it must address these issues.
    Question. As a Member of the Board of Directors of Amtrak, you must 
be aware of the debt payments and liabilities of the corporation--
likely to amount to $285 million next year. You suggest funding to pay 
for Amtrak's debt ought to be paid for out of non-Federal sources, such 
as revenues. But all revenues are used to pay for operating and capital 
needs of the corporation. Where do you propose cuts to service or 
capital be made?
    Answer. It is the administration's position that Amtrak's 
management has the responsibility for managing the Corporation in such 
a way as to live within the resources available to it.
    Question. Does the administration feel Amtrak's debts should be 
paid at all?
    Answer. The Department believes that Amtrak should meet its debt 
service obligations and makes that a condition of the grant agreements 
between the Federal Railroad Administration and Amtrak. To be clear, 
however, Amtrak's debts are the obligation of the Corporation and not 
of the Federal Government.

                      FUNDING FOR TRANSIT PROJECTS

    Question. Less than 3 weeks after President Bush's ``State of the 
Union'' address, he proposes cutting funding for transit projects by 
over $300 million from congressionally authorized levels. In light of 
the President's environment and energy goals set forth in his speech, 
how can you justify these cuts for transit?
    Answer. The Federal Transit Administration's (FTA) budget requests 
$1,399.82 million in fiscal year 2008 for New Starts projects, of which 
$100 million is for Small Starts. The President's budget request sets 
priorities and keeps commitments by fully funding all existing 
construction projects, as well as funding four new, highly qualified 
projects.
    FTA's budget fully funds existing and new multi-year construction 
projects under the New Starts program. Eleven projects with existing 
full funding grant agreements (FFGAs) are recommended for funding in 
fiscal year 2008. In addition, two projects with pending FFGAs carried 
over from fiscal year 2007 are proposed in the budget. Two new projects 
are proposed for funding in the budget: New York, NY--Second Avenue 
Subway, Phase I and Seattle, WA--University Link LRT Extension, both of 
which are rated ``High'' in overall project rating. It is expected that 
these projects will receive an FFGA in fiscal year 2008. The table 
below reflects projected ridership for the two projects with pending 
FFGAs and the two projects proposed to receive FFGAs in fiscal year 
2008.

             RIDERSHIP FORECAST FOR SELECT PROJECTS ANTICIPATED TO RECEIVE FFGAs IN FISCAL YEAR 2008
----------------------------------------------------------------------------------------------------------------
                                                                                        Ridership Forecast
                     City                                    Project             -------------------------------
                                                                                     Ridership     Forecast Year
----------------------------------------------------------------------------------------------------------------
Pending FFGA:
    Denver, CO................................  West Corridor LRT...............          28,300            2030
    Portland, OR..............................  South Corridor I-205/Portland             46,500            2025
                                                 Mall LRT.
Proposed FFGA:
    New York, NY..............................  Second Avenue Subway Phase I....         213,000            2030
    Seatle, WA................................  University Link LRT Extension...          40,200            2030
----------------------------------------------------------------------------------------------------------------

    During the November-December 2006 time frame, New Starts ratings 
and the President's fiscal year 2008 budget decisions were finalized. 
At that time, six projects were forwarded in the ``Other'' category 
that might be ready for funding or an FFGA prior to the end of the 
fiscal year (September 30, 2008). Forwarding these projects in the 
``Other'' category of the budget demonstrates the administration's 
interest in funding them if progress toward completion of preliminary 
requirements is sufficient to support a recommendation for an FFGA 
under the New Starts evaluation and rating framework. During late 
spring and summer 2007, FTA will provide periodic updates on the 
``Other'' category projects to appropriators to support sound 
appropriation decisions. Past experience has shown that not all of the 
projects in the ``Other'' category will be ready for funding or an FFGA 
during fiscal year 2008. FTA is confident that the amount requested for 
New Starts in total meets the demand for funding expected during fiscal 
year 2008.
    FTA requested $100 million for Small Starts in fiscal year 2008 
because there were no Small Starts projects ready in fiscal year 2007, 
and only four Small Starts projects were ready for funding when work 
was completed on the fiscal year 2008 budget. In total, those projects 
only need $52 million in fiscal year 2008 and two of those four will 
now be funded in fiscal year 2007. Thus, the Small Starts request is 
realistic and sufficient, both for these projects and for any other 
Small Start that becomes ready for funding in fiscal year 2008.

                     FEWER AIR TRAFFIC CONTROLLERS

    Question. There are still almost a thousand less air traffic 
controllers than 3 years ago, and the strain on the system is obvious, 
with delays throughout the system and a growing workload for each 
controller. How do you know that the 1,420 controllers you plan to hire 
will be enough, given that FAA has underestimated the number of 
retirements?
    Answer. At the end of September 2003, there were 15,691 controllers 
on board compared with 14,469 as of March 31, 2007, for a difference of 
1,222 controllers. This only tells part of the story, however, as the 
Federal Aviation Administration's (FAA) previous contract required the 
agency to increase staffing, even as the number of FAA-handled 
operations plummeted following the September 11, 2001, terrorist 
attacks. While the agency continued to hire, the FAA's customers in the 
aviation industry were laying off tens of thousands of employees and 
drastically scaling back operations.
    From the chart below, you can see that today headcount is still 
ahead of traffic. You can also see that through 2006, total operations 
per controller on average remain more than 6 percent below pre-
September 11, 2001 levels.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    FAA now staffs its facilities based on traffic, with workload 
driven by the number of positions that need to be staffed due to 
forecasted traffic demands. Additional information can be found in the 
March 2007 Report, A Plan for the Future: The FAA's 10-Year Strategy 
for the Air Traffic Control Workforce. This concept of staffing to 
traffic requires the FAA to incorporate many individual facility 
characteristics. They include facility-specific traffic volumes based 
on FAA forecasts and hours of operation, as well as individualized 
forecasts of controller retirements and other attrition losses.
  --In fiscal year 2006 the FAA hired 1,116 air traffic controllers.
  --In fiscal year 2007 the FAA plans to hire more than 1,300 new air 
        traffic controllers.
    Should adjustments become necessary due to changes in traffic 
volumes, retirements or other losses, the FAA will take action at the 
facility level.

                          REPORTS TO CONGRESS

    Question. When does the administration intend to submit the 
following reports, as required by law:
  --Public Law 109-115: ``Provided further, That not later than 
        December 31, 2015, the owner or operator of an airport 
        certificated under 49 U.S.C. 44706 shall improve the airport's 
        runway safety areas to comply with the Federal Aviation 
        Administration design standards required by 14 CFR part 139: 
        Provided further, That the Federal Aviation Administration 
        shall report annually to the Congress on the agency's progress 
        toward improving the runway safety areas at 49 U.S.C. 44706 
        airports.''
  --Public Law 109-59:

 SEC. 2003. HIGHWAY SAFETY RESEARCH AND OUTREACH PROGRAMS.

    (f) Refusal of Intoxication Testing.--
            (1) Study.--The Secretary shall carry out under section 403 
        of title 23, United States Code, a study of the frequency with 
        which persons arrested for the offense of operating a motor 
        vehicle while under the influence of alcohol and persons 
        arrested for the offense of operating a motor vehicle while 
        intoxicated refuse to take a test to determine blood alcohol 
        concentration levels and the effect such refusals have on the 
        ability of States to prosecute such persons for those offenses.
            (2) Consultation.--In carrying out the study under this 
        subsection, the Secretary shall consult with the Governors of 
        the States, the States' Attorneys General, and the United 
        States Sentencing Commission.
            (3) Report.--
                    (A) Requirement for report.--Not later than 2 years 
                after the date of the enactment of this Act, the 
                Secretary shall submit a report on the results of the 
                study to the Committee on Commerce, Science, and 
                Transportation of the Senate and the Committee on 
                Transportation and Infrastructure of the House of 
                Representatives.
                    (B) Content.--The report shall include any 
                recommendation for legislation, including any 
                recommended model State legislation, and any other 
                recommendations that the Secretary considers 
                appropriate for implementing a program designed to 
                decrease the occurrence of refusals by arrested persons 
                to submit to a test to determine blood alcohol 
                concentration levels.
    Answer. The Runway Safety Report has been completed and the Federal 
Aviation Administrator transmitted the report to Congress on May 25th.
     In December 2005, the Department met with House and Senate staff 
to discuss the timing of the alcohol testing report. We were very 
pleased when the Committees agreed to allow the deadline for this 
report to be moved until June 10, 2008. The issue of breath test 
refusals and its impact on the ability of States to prosecute impaired 
driving offenses is complex, which necessitated our request to delay 
the report. NHTSA awarded a contract in fiscal year 2006 to update an 
existing report on breath test refusals (using data from 2000) and 
added the requirement to study its impact on impaired driving 
prosecutions. The Department fully expects to meet the new deadline.
                                 ______
                                 
               Question Submitted by Senator Ted Stevens

                        INDIAN RESERVATION ROADS

    Question. The Safe, Accountable, Flexible, Efficient Transportation 
Equity Act: A Legacy for Users (SAFETEA-LU) directs the Secretary of 
Transportation, in cooperation with the Secretary of Interior, to 
complete a comprehensive national inventory of transportation 
facilities eligible under the Indian Reservation Roads (IRR) program. 
This inventory is to be completed within 2 years of SAFETEA-LU's 
enactment. I have been contacted by tribes from across the country 
concerned their roads are not being included in the national inventory 
based on vague guidance from the Bureau of Indian Affairs (BIA) that 
varies from region to region as to what requirements must be met for a 
road to be accepted. Roads must be included in the inventory in order 
to receive funds through the IRR program
    Given that the IRR program is jointly administered by the Federal 
Highway Administration (FHWA) and the Bureau of Indian Affairs (BIA), 
what is FHWA doing to ensure clear and uniform guidance to Tribes so 
their inventories may be accepted?
    Answer. The Indian Reservation Roads (IRR) Program is jointly 
administered by the Bureau of Indian Affairs (BIA) and Federal Highway 
Administration (FHWA) and we are jointly working on the development of 
a comprehensive inventory of all facilities eligible for inclusion in 
the Program. Numerous changes to the IRR Program have taken place over 
the past few years, the most significant being the publication of the 
IRR Program Final Rule (25 CFR 170). This rule provides all of the 
regulations on how the IRR Program is to be carried out and was 
developed as a result of the negotiated rulemaking process between the 
Indian tribes and the Federal Government that was required in the 
Transportation Equity Act for the 21st Century (TEA-21).
    During the first year under these new regulations (2005), it became 
evident that the requirements to have a road or facility included in 
the IRR Program inventory needed to be clarified. The IRR Coordinating 
Committee (which also was formed as a result of the Final Rule) 
recognized this fact and worked closely with BIA and FHWA 
representatives to develop a new comprehensive list of the requirements 
needed for IRR Program Inventory submittals. This updated list was 
presented to the Department of the Interior's Assistant Secretary Cason 
for his approval and a new policy letter was published with his 
signature on June 15, 2006.
    The policy was provided to all of the BIA Regions and their 
respective tribes. Additional information and training was provided to 
the various Tribal Technical Assistance Program (TTAP) Centers 
throughout the country so that they too could provide training on this 
subject to the Tribes. As a result, the number of inventory sections 
that were submitted yet returned to the Tribes as incomplete 
substantially decreased last fiscal year and has continued to decrease 
this past year. With the ability to make the inventory system available 
to tribes directly through the Internet, we anticipate this reduction 
to continue.
    Over the past few years, the number of miles included in the IRR 
Program inventory has increased from approximately 64,000 in fiscal 
year 2003 to over 85,000 this past year. One BIA Region that has 
witnessed a substantial increase in their IRR Program inventory has 
been the Alaska Region where the number of miles in the approved IRR 
Program inventory has increased over 1,800 percent in the last 10 
years.
    Improvements to the IRR inventory process is an ongoing process in 
which the IRR Coordinating Committee, FHWA, and BIA are all jointly 
working together to develop and implement. It is well understood that 
it is in the best interest of everyone that the system be as simple as 
possible yet be carried out in a manner that is fair for all tribes. 
This is often difficult yet it is one that all of us involved are 
striving to accomplish.

                          SUBCOMMITTEE RECESS

    Senator Murray. This subcommittee stands in recess until 
Thursday, March 1.
    [Whereupon, at 11:12 a.m., Thursday, February 8, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
